<html>
<title> - NOMINATION OF MARY ANN SOLBERG, OF MICHIGAN, NOMINEE TO BE DEPUTY DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL POLICY; BARRY D. CRANE, OF VIRGINIA, NOMINEE TO BE DEPUTY DIRECTOR OF SUPPLY REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY; SCOTT BURNS, OF UTAH, NOMINEE TO BE DEPUTY DIRECTOR FOR STATE AND LOCAL AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY; AND J. ROBERT FLORES, OF VIRGINIA, NOMINEE TO BE ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION, U.S. DEPARTMENT OF JUSTICE</title>
<body><pre>[Senate Hearing 107-894]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-894

                      EXECUTIVE BRANCH NOMINATIONS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 5, 2002

                               __________

                          Serial No. J-107-64

                               __________

         Printed for the use of the Committee on the Judiciary


85-793              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.   180
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.   186

                               PRESENTERS

Allen, Hon. George, a U.S. Senator from the State of Virginia 
  presenting Barry D. Crane, Nominee to be Deputy Director of 
  Supply Reduction, Office of National Drug Control Policy and J. 
  Robert Flores, Nominee to be Administrator, Office of Juvenile 
  Justice and Delinquency Prevention, Department of Justice......    12
Bennett, Hon. Robert, a U.S. Senator from the State of Utah 
  presenting Scott Burns, Nominee to be Deputy Director for State 
  and Local Affairs, Office of National Drug Control Policy......    11
Levin, Hon. Carl, a U.S. Senator from the State of Michigan 
  presenting Mary Ann Solberg, Nominee to be Deputy Director, 
  Office of National Drug Control Policy.........................     6
Levin, Hon. Sander, a Representative in Congress from the State 
  of Michigan presenting Mary Ann Solberg, Nominee to be Deputy 
  Director, Office of National Drug Control Policy...............     8
Stabenow, Hon. Debbie, a U.S. Senator from the State of Michigan 
  presenting Mary Ann Solberg, Nominee to be Deputy Director, 
  Office of National Drug Control Policy.........................     7
Warner, Hon. John, a U.S. Senator from the State of Virginia 
  presenting Barry D. Crane, Nominee to be Deputy Director of 
  Supply Reduction, Office of National Drug Control Policy and J. 
  Robert Flores, Nominee to be Administrator, Office of Juvenile 
  Justice and Delinquency Prevention, Department of Justice......    14

                       STATEMENTS OF THE NOMINEES

Burns, Scott, Nominee to be Deputy Director for State and Local 
  Affairs, Office of National Drug Control Policy................    52
    Questionnaire................................................    55
Crane, Barry D., Nominee to be Deputy Director of Supply 
  Reduction, Office of National Drug Control Policy..............    37
    Questionnaire................................................    40
Flores, J. Robert, Nominee to be Administrator, Office of 
  Juvenile Justice and Delinquency Prevention, Department of 
  Justice........................................................    75
    Questionnaire................................................    80
Solberg, Mary Ann, Nominee to be Deputy Director, Office of 
  National Drug Control Policy...................................    19
    Questionnaire................................................    22

                                WITNESS

Flowers, Robert L., Commissioner of Public Safety, Salt Lake 
  City, Utah.....................................................    16

                         QUESTIONS AND ANSWERS

Responses of Barry Crane to questions submitted by Senator 
  Grassley.......................................................   137
Responses of Barry Crane to questions submitted by Senator 
  Kennedy........................................................   154
Responses of Scott Burns to questions submitted by Senator Durbin   126
Responses of Scott Burns to questions submitted by Senator 
  Grassley.......................................................   128
Responses of Mary Ann Solberg to questions submitted by Senator 
  Grassley.......................................................   161

                       SUBMISSIONS FOR THE RECORD

Administrative Office of the United States Courts, Washington, 
  D.C., letter and attachments...................................   174
Speaker's Task Force for a Drug Free America, Washington, D.C., 
  letter.........................................................   188

 
   NOMINATION OF MARY ANN SOLBERG, OF MICHIGAN, NOMINEE TO BE DEPUTY 
 DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL POLICY; BARRY D. CRANE, OF 
VIRGINIA, NOMINEE TO BE DEPUTY DIRECTOR OF SUPPLY REDUCTION, OFFICE OF 
   NATIONAL DRUG CONTROL POLICY; SCOTT BURNS, OF UTAH, NOMINEE TO BE 
 DEPUTY DIRECTOR FOR STATE AND LOCAL AFFAIRS, OFFICE OF NATIONAL DRUG 
   CONTROL POLICY; AND J. ROBERT FLORES, OF VIRGINIA, NOMINEE TO BE 
 ADMINISTRATOR, OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION, 
                       U.S. DEPARTMENT OF JUSTICE

                              ----------                              - 
- -


                         TUESDAY, MARCH 5, 2002

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden presiding.
    Present: Senators Biden, Hatch, and Grassley.

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Senator Biden. The hearing will please come to order.
    I have looked forward to this hearing for some time, in 
large part because I wanted in front of my colleagues to assume 
the chairmanship of this committee for a moment with Senator 
Hatch as the ranking member to remind me of the good old days.
    The real reason we are here today is to fill some vacancies 
that are very, very important, and we have an illustrious panel 
to introduce our nominees. As is the usual procedure, we move 
based on seniority, but before we do let me suggest that of our 
three nominees, both Barry Crane and John Flores are going to 
be introduced or referenced by Senator Warner. Senator Bennett 
will speak to Mr. Burns. Senator Allen will speak to Messrs. 
Crane and Burns, and Senator Levin and Senator Stabenow and 
Congressman Levin will speak to Ms. Solberg. We are going to 
proceed after opening statements in the order of seniority of 
those that are here.
    This morning, the Judiciary Committee is going to consider 
the four nominations, three for deputy director positions at 
the Office of National Drug Control Policy and one for 
Administrator of the Department of Justice's Office of Juvenile 
Justice and Delinquency Prevention.
    As chairman of the Subcommittee on Crime and Drugs, I am 
pleased to be able to chair this hearing today. Rather than go 
through the impressive credentials of the nominees, I will 
submit my statement for the record and forgo that, since they 
are obviously going to be referenced by our distinguished 
introducers here.
    [The prepared statement of Senator Biden follows:]

               Statement of Senator Joseph R. Biden, Jr.

    This morning the Judiciary Committee will consider four 
nominations, three for Deputy Director positions at the Office of 
National Drug Control Policy and one to be the Administrator of the 
Department of Justice's Office of Juvenile Justice and Delinquency 
Prevention. As the Chairman of the Judiciary Subcommittee on Crime and 
Drugs, I am pleased to be chairing this hearing today because I will be 
working closely with all of our nominees.
    Our first nominee is John Robert Flores, who I understand goes by 
Bob. Bob Flores was nominated by the President last year to be the 
Administrator of the Office of Juvenile Justice and Delinquency 
Prevention. The mission of the Office of Juvenile Justice and 
Delinquency Prevention is to provide national leadership, coordination, 
and resources to prevent and respond to juvenile delinquency and 
victimization. This mission is as critical today as it was almost 30 
years ago when the Office was first created.
    Juvenile crime has been down in recent years--the juvenile arrest 
rate for violent crime in 1999 was 36% below its peak in 1994--but it 
is still too high. The most recent data indicates to us that juveniles 
are involved in 33 percent of all burglary arrests, 24 percent of all 
weapons arrests, and 13 percent of all drug abuse violation arrests.
    We need to do better. We need to give our young people smart crime 
prevention programs, and we need to tell those kids who won't change 
their ways that there is a consequence attached to misbehavior.
    I look forward to working with the Administration to accomplish 
these goals. We are once again attempting to reauthorize the Juvenile 
Justice Act--Its authority expired in 1996 and it's time to get that 
Act extended. I hope the Administration can provide us with their 
thoughts on where to take juvenile justice in the coming years. And 
that is why I welcome the Administration's nominee to head the juvenile 
justice office here this morning.
    Bob Flores was born in Puerto Rico and currently resides in 
Virginia. He is a graduate of Boston University and Boston University 
School of Law. He is a prosecutor by training. Bob spent five years as 
an Assistant District Attorney in the Manhattan District Attorney's 
Office. From 1989 to 1997, he worked at the Department of Justice in 
the Child Exploitation and Obscenity Section of the Criminal Division. 
At Justice, Bob developed policies to investigate and prosecute child 
pornography and sexual abuse. He left Justice to be the Vice President 
and Senior Counsel for the National Law Center for Children and 
Families.
    Next, we have Mary Ann Solberg who was nominated by the President 
to be the Deputy Director of the Office of National Drug Control 
Policy.
    I am pleased that the President has picked someone with such a 
strong prevention background to be second in command at the Drug Czar's 
office.
    Mrs. Solberg has worked tirelessly for the past decade in her own 
community to reduce drug use, so she knows first hand how to get 
results. She is currently the Executive Director of both the Troy 
Michigan Community Coalition for the Prevention of Drug and Alcohol 
Abuse and the Coalition of Healthy Communities, two non-profit 
organizations made up of businesses, government, and community leaders 
that seek to reduce substance use and abuse by teenagers. She has also 
been very involved in the Community Anti-Drug Coalitions of America and 
was one of eleven national leaders appointed by President Clinton in 
1998 to the Advisory Committee for the Drug Free Communities Program.
    Mrs. Solberg also has a great deal of experience working closely 
with law enforcement over the years. She has helped to establish a drug 
court in Troy Michigan, trained local prosecutors, and worked hand in 
hand with the local police.
    Prior to her involvement with substance abuse prevention, Mrs. 
Solberg worked as a teacher, a job at which I know she excelled because 
she was named ``Teacher of the Year.''
    Her nomination has been endorsed by a wide range of groups 
including the Partnership for a Drug Free America, the Community Anti-
Drug Coalitions of America, the Legal Action Center, and the National 
Association for Children of Alcoholics. I welcome her here today.
    Next, we have Dr. Barry Crane, who has been nominated to be the 
Deputy Director for Supply Reduction, meaning that he will be 
responsible for advising the Drug Czar on policies and programs to 
reduce the supply of drugs.
    Barry Crane graduated from the U.S. Air Force Academy, earned a PhD 
in Physics from the University of Arizona, and was a National Security 
Fellow at Harvard's Kennedy School of Government.
    He served in the Air Force for 24 years, retiring in 1991 at the 
rank of Colonel. He has also taught physics and engineering at Chapman 
College in New Mexico and the George Washington University.
    Dr. Crane has spent the past decade as the Project Leader for 
Counterdrug Analysis at the Institute for Defense Analysis. In this 
capacity he has examined the effectiveness of operations to interdict 
cocaine and has done research and evaluations for the United States 
Interdiction Coordinator, the Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict and the United States 
Coast Guard.He has also worked closely with the State Department, the 
Justice Department, the Drug Enforcement Administration, the Customs 
Service, and the United Nations Drug Control Program.
    Finally, we have Scott Burns, the nominee to be the Director of the 
Bureau of State and Local Affairs, meaning that he will work with state 
and local government agencies and public interest groups to develop and 
implement the National Drug Control Strategy. He will work closely with 
Federal law enforcement and will oversee the High Intensity Drug 
Trafficking Area program.
    Scott Burns is no stranger to law enforcement. He has served as the 
County Attorney in Iron County, Utah since 1986. He has prosecuted over 
100 felony jury trials, including several high profile rape, sexual 
abuse of children, capital murder and narcotics distribution 
prosecutions.
    He has also served on several national and state boards including 
the White House Commission on Illegal Narcotics and Addiction, the Utah 
Police Academy Board of Trustees, the Utah Sentencing Commission, the 
Utah Chiefs of Police Association, and as Chairman of the Southern Utah 
Law Enforcement Agencies Board of Directors.
    Prior to becoming County Attorney he was a partner with Burns & 
Burns Attorneys at Law. He also has been an adjunct professor at 
Southern Utah University, teaching various criminal justice and law 
courses from 1992 to 1998.
    Scott Burns is a graduate of Southern Utah University where he was 
the starting quarterback for four years. He must have been good, 
because he was inducted into the University's Hall of Fame in 1996. He 
studied law at California Western School of Law where he served as 
Student Bar Association President.
    I welcome all of our nominees here this morning and I look forward 
to hearing from each of them.

    Senator Biden. With that, why don't I turn to Senator Hatch 
for any statement he may have, and then we will go to the 
introducers.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, thank you, Mr. Chairman. I appreciate 
your chairing these hearings. This is a very important hearing 
for four critical executive branch nominees. I want to joint 
Senator Biden in welcoming all of our colleagues here today and 
welcoming all of our nominees to today's hearing.
    The Justice Department nominee, Mr. John Robert Flores, has 
been selected to be Administrator of the Office of Juvenile 
Justice and Delinquency Prevention, an arm of the Department of 
Justice whose mission is to prevent and respond to our youth 
delinquency problems.
    We are also fortunate to have today the three nominees to 
be deputy directors of the White House Office of National Drug 
Control Policy, ONDCP. In selecting Scott Burns, a Utahn whom I 
personally know is up to the task to handle State and local 
affairs, Dr. Barry Crane to head the Office of Supply 
Reduction, and Mary Ann Solberg to be deputy czar, the 
President has assembled an excellent team of dedicated and 
knowledgeable professionals.
    I commend President Bush for his willingness to confront 
the issue of drug use, especially among our youth, and ensure 
him that I will support him, Director Walters, and their fine 
team before us today in all of their efforts.
    Now, I could go on and on, too, but we do have our 
colleagues here to speak to each and every one of these. I just 
want to say that having watched Scott Burns through the years, 
I don't know that I have ever met a better law enforcement 
official or prosecutor than Scott. He is just an honest, 
decent, wonderful man.
    His wife is an excellent lawyer herself, and so Washington 
is going to get two very good lawyers to work here. I just 
couldn't speak more highly of any person than I can of the two 
of them. They have their beautiful young daughter here today 
and I am proud of her as well.
    I will just leave it at that. There are so many nice things 
I would like to say about Scott, but I will count on my 
distinguished colleague, Senator Bennett, to carry that load.
    Thanks, Mr. Chairman.
    [The prepared statement of Senator Hatch follows:]

                  Statement of Senator Orrin G. Hatch

    Mr. Chairman, first I want to thank you for taking the time to 
chair this hearing today for four critical executive branch nominees. I 
want to join Senator Biden in welcoming all of our nominees to today's 
hearing. Our sole Justice Department nominee, Mr. John Robert Flores, 
has been selected to be Administrator of the Office of Juvenile Justice 
and Delinquency Prevention, an arm of the Department of Justice whose 
mission is to prevent and respond to our youth's delinquency problems. 
We are also fortunate to have today the three nominees to be Deputy 
Directors of the White House Office of National Drug Control Policy, 
ONDCP. In selecting Scott Burns--a Utahn, who I personally know is up 
to the task--to handle State and Local Affairs, Dr. Barry Crane to head 
the Office of Supply Reduction, and Mary Ann Solberg to be the Deputy 
Czar, the President has assembled an excellent team of dedicated and 
knowledgeable professionals. I commend President Bush for his 
willingness to confront the issue of drug use, especially among our 
youth, and ensure him that I will support him, Director Walters, and 
their fine team before us today in their efforts.
    Mary Ann Solberg has over 25 years of community service under her 
belt, and we should be grateful that she has agreed to accept the 
President's call to serve as Deputy Czar. She chairs the Advisory 
Commission on Drug-Free Communities, serves in an advisory capacity to 
the Center for Substance Abuse Prevention, and is a Board member of the 
Community Anti-Drug Coalitions of America. She has been recognized on 
numerous occasions for her dedicated work with families and communities 
to prevent youth drug use. She is supported by numerous treatment and 
prevention groups, including the Partnership for a Drug-Free America 
and the Community Anti-Drug Coalitions of America. I am confident she 
will continue her hard work in preventing youth drug use once 
confirmed.
    Dr. Barry Crane also has a long history of combating drug use. Dr. 
Crane has served as a Project Leader for Counterdrug Research at the 
Institute of Defense Analyses for the last ten years. He served in the 
United States Air Force for 24 years where he piloted fighter jets and 
earned a distinguished combat record. He is eager to bring his 
knowledge and experience to ONDCP to help reduce the supply of illegal 
drugs coming into America.
    Scott Burns also has had extensive experience with combating the 
trafficking in and manufacturing of illegal drugs. As the Iron County 
Prosecutor in southern Utah for the past 12 years, he has worked 
closely with law enforcement and community groups to stem the rising 
use of Methamphetamine and other dangerous drugs. He started Utah's 
first narcotics task force, the model of which has been repeatedly used 
to form other successful narcotics task forces around the state. Scott 
has proven that he can bring people together to work for a common 
cause, and I am confident he will make an excellent Deputy for State 
and Local Affairs.
    Our Justice Department nominee, John Robert Flores, will also play 
an important role in preventing our youth from going down the wrong 
path. The Office of Juvenile Justice coordinates federal and state 
programs, and provides grants and funding to localities and private 
organizations. Mr. Flores has been at the Department before. During his 
time at the Department of Justice, Mr. Flores helped develop and carry 
out two important enforcement programs: Operation Long Arm, which 
targeted American citizens importing child pornography from foreign 
sites, and Innocent Images, which addressed trafficking in child 
pornography on the Internet. He has prosecuted hundreds of criminal 
cases, including the first federal case involving the distribution of 
child pornography via computer, and written numerous amicus briefs in 
key obscenity and child pornography cases while serving as Senior 
Counsel for the National Law Center for Children and Families. We look 
forward to his views on how he will continue his work to protect 
children in his new position at the Department once confirmed.
    We all agree that if we are to win the war on drugs in America, we 
need a comprehensive policy aimed at reducing both the demand for and 
supply of drugs. I was not surprised that the President's $19.2 billion 
anti-drug budget is supported by a comprehensive National Drug Control 
Strategy that sets clear and specific national goals for reducing drug 
use in America. The Strategy is based on three core principals: (1) 
Stopping drug use before it starts; (2) Healing America's drug users; 
and (3) Disrupting the drug market. Prevention, treatment, and 
interdiction, the three integral components of an effective drug 
control strategy, will all play a pivotal role in realizing the 
President's recently announced goals to reduce illegal drug use by 10 
percent over 2 years, and by 25 percent over 5 years. These goals apply 
both to drug use among young Americans between the ages of 12 and 17 
and among adults.
    I am confident that these goals can and will be achieved 
through the tenacious work of our dedicated law enforcement 
agencies, community coalitions, educators, biomedical 
researchers, clergy, and, most importantly, caring families. 
However, achieving such goals will be an uphill battle 
considering it will require reversing a decade long trend of 
dramatic rises in youth drug use. And, although overall drug 
use has appeared to level off over the past few years, it has 
done so at unacceptably high levels. Additionally, youth use of 
particular drugs has never stabilized. According to the most 
recent national surveys, youth drug use of so-called ``club 
drugs'' such as Ecstasy and GHB, has been steadily rising for 
some time. Since 1997, use of Ecstasy among 12th graders has 
increased dramatically by 130 percent. It is simply shocking 
that by the time of graduation from high school, 54 percent of 
our youth have used an illicit drug. We must act immediately to 
reverse these soaring numbers, and I look forward to hearing 
our panelists's ideas on how we can bring down these numbers.
    I am excited about the team of determined and no-nonsense 
professionals this President has selected. His Drug Strategy is 
aggressive, but that is what we need and the youth of this 
country deserve. In this regard, I am very interested to hear 
from Ms. Solberg how she intends to use her vast experience 
with, and knowledge, of community coalitions and parents groups 
to implement the President's Strategy and to improve prevention 
efforts across the country.
    Furthermore, I know that the President has proposed to 
disrupt the drug market at home and abroad. Domestically, 
attacking the economic basis of the drug trade involves the 
cooperative, combined efforts of federal, state, and local law 
enforcement. Internationally, we must continue to target the 
supply of illegal drugs in the source countries. I look forward 
to hearing specifically from Mr. Burns and Dr. Crane on what 
ideas they have to achieve this goal.
    Mr. Chairman, last year I introduced S. 304, the ``Drug 
Abuse Education, Prevention, and Treatment Act of 2001,'' a 
bipartisan bill, that I drafted with Senator Leahy, you, and 
Senators DeWine, Thurmond, and Feinstein. The legislation, as 
you well know, seeks to increase dramatically prevention and 
treatment efforts, and I remain confident that S. 304 will 
become law this session. I am eager to get our panelists' views 
on this legislation to the extent they are familiar with it and 
to learn what additional measures they believe should be 
undertaken by Congress to assist in our efforts on curbing drug 
abuse.
    Mr. Chairman, Robert Flowers, Utah Commissioner of Public 
Safety, is here today to introduce and support Mr. Burns. As 
head of State law enforcement activity, Commissioner Flowers 
played an integral role in ensuring the security and success of 
the Salt Lake Winter Olympic games. Commissioner Flowers and 
his Deputy have come 2,500 miles to support Scott and I ask if 
you might allow him to introduce Scott along with the first 
panel. I am so proud of him. He was the key coordinator of the 
numerous federal, state, and local agencies involved in the 
Olympic's security. Given the success of the games and the 
security provided, I, and the nation, owe Bob a much deserved 
thank you.

    Senator Biden. Thank you very much.
    I know we don't often do this this way, but, Senator 
Grassley, would you like to say anything.
    Senator Grassley. I think I will pass.
    Senator Biden. Thank you.
    Well, why don't we begin with the chairman of the Armed 
Services Committee, who is apparently conducting hearings as we 
speak and has to get back, and also is the most senior of the 
panelists.
    Would you like to begin, Senator Levin?

    PRESENTATION OF MARY ANN SOLBERG, NOMINEE TO BE DEPUTY 
 DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL POLICY BY HON. CARL 
        LEVIN, A U.S. SENATOR FROM THE STATE OF MICHIGAN

    Senator Levin. Mr. Chairman, thank you, and Senator Hatch 
and Senator Grassley. Thank you for convening the hearing. 
Seniority has many advantages. One of them is apparent here 
this morning that even though I came after the other witnesses 
here, you allow me to go first.
    Senator Biden. In other words, you get to turn the lights 
off at night.
    Senator Levin. I notice that Senator Warner, who is my 
ranking member, is back there minding store, so I really had 
better get back quickly.
    Senator Biden. I would very much like you to get back. 
[Laughter.]
    Senator Levin. I am sure he will be here or at least will 
want to submit a statement.
    I am here for Mary Ann Solberg. I just can't think of 
anybody who would be more appropriately appointed to this 
position than Mary Ann Solberg. As Deputy Director of the 
Office of National Drug Control Policy, she will be putting to 
great use the hands-on experience that she has had in her 
hometown for many, many years.
    She has been the executive director of the Troy Community 
Coalition for the Prevention of Drug and Alcohol Abuse, in 
Troy, Michigan, which is a suburb of the city of Detroit. She 
has been the executive director for about ten years of that 
coalition. She has been also the executive director of the 
Coalition of Health Communities.
    In this position, Mr. Chairman and members of the 
committee, she has managed a coalition of 140 organizations, 
institutions, and public officials. She has chaired a 200-
member citywide advisory committee. She has managed almost $5 
million in substance abuse prevention funds.
    Her hands-on experience has led her to start a drug court 
in her community. She regularly helps to train judges, police, 
and prosecutors about substance abuse. She has worked with the 
local prosecutor to address emerging substance abuse issues and 
to establish policy.
    She has been the recipient of many endorsements for this 
position, including by the National Association of Drug Court 
Professionals, Partnership for a Drug-Free America, Community 
Anti-Drug Coalitions of America, the National Association for 
Children of Alcoholics, State Associations of Addiction 
Services, and many other organizations. She really is 
extraordinarily experienced for this particular position.
    My brother, Sandy, knows her even better than I do and he 
is here to add his words. All I can say is, as is almost always 
the case, he will be speaking the words of his younger 
brother--or at least the sentiments of his younger brother, not 
the words; the words are his own.
    Senator Biden. More eloquently, did you say? Did you say 
more eloquently?
    Senator Levin. Yes, probably more eloquently.
    Senator Biden. That is what I thought.
    Senator Levin. We always maintain that 1-percent safety 
valve because sometimes his words don't exactly reflect mine, 
but I am sure that this morning he will be, as well as Senator 
Stabenow, who is here to present our nominee.
    I just want to thank this committee for holding these 
hearings again, and hope that she can be promptly recommended 
to the Senate so we can vote on her confirmation.
    Senator Biden. I have one question. Was that all designed 
to make the case that you are younger than your brother?
    Senator Levin. It was all designed to give him an 
introduction to the committee.
    Senator Hatch. Sander, he has been a heavy load to carry 
through the years, I am sure.
    Mr. Levin. I have no comment, Senator.
    Senator Biden. Let me ask my colleagues from Virginia and 
Utah, are your time constraints--are you tight, because for 
continuity maybe we could continue on Solberg here?
    Mr. Levin. I would be glad to wait.
    Senator Biden. Well, I was going to go to Senator Stabenow 
next and then to you, Sander, and then we can move to the next 
nominees.

    PRESENTATION OF MARY ANN SOLBERG, NOMINEE TO BE DEPUTY 
DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL POLICY BY HON. DEBBIE 
      STABENOW, A U.S. SENATOR FROM THE STATE OF MICHIGAN

    Senator Stabenow. Well, thank you, Mr. Chairman. It is my 
great pleasure to be here with Senator Levin and Congressman 
Levin, and I will not comment on the age of my colleagues or 
anything else related to my colleagues.
    Senator Biden. Other than to note you are younger than both 
of them.
    Senator Stabenow. Yes, that is right.
    I am extremely pleased to be here, and I thank you for 
giving me the opportunity to offer my very strong and 
enthusiastic support for the President's nomination of Mary Ann 
Solberg as deputy director in charge of drug policy for the 
National Office of Drug Control Policy. I am very pleased and 
appreciate very much the President's nomination.
    As Executive Director of the Troy Community Coalition for 
the Prevention of Alcohol and Drug Abuse, Mary Ann has been 
able to get real results, and I think that is what is so 
important about this nomination. This is someone who knows how 
to get results by mobilizing a broad community coalition in the 
war on drugs.
    The coalition's 140 members include local schools and 
businesses, law enforcement, the courts, and agencies and 
service groups. Working together, this coalition has been able 
to change behavior and attitudes toward drugs and alcohol in 
both children and adults, and we know that that is no small 
task to be able to accomplish that.
    In certain targeted areas, drug and alcohol abuse has 
dropped by 50 percent, with the added benefit that child abuse 
rates have also dropped. The war against drugs and alcohol 
abuse has my full support, as does this nomination. I know that 
the casualties of inaction are the health of our children and 
our families.
    The only thing that makes me sad about supporting this 
nomination is that Michigan will sorely miss her leadership, 
but we know that we will benefit by this nomination going to 
confirmation and the leadership of this wonderful woman that 
will take place in touching the lives of families around this 
Nation. We are very proud of her talents. We know that it is 
now our turn to share Mary Ann Solberg with the rest of the 
Nation, and I am extremely proud and pleased to be here to 
support this nomination.
    Thank you.
    Senator Biden. Thank you very much, Senator.
    Congressman Levin.

    PRESENTATION OF MARY ANN SOLBERG, NOMINEE TO BE DEPUTY 
DIRECTOR, OFFICE OF NATIONAL DRUG CONTROL POLICY BY HON. SANDER 
 LEVIN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

    Representative Levin. Thank you so much, Mr. Chairman, and 
Senator Hatch and Senator Grassley. It has been my privilege as 
I have been in this institution to come to know all three of 
you and I cherish our relationship. That makes me especially 
pleased to be here today with colleagues from the Senate, one 
of whom I served with in the House, and others I know very 
well, including Senator Bennett's sense of humor.
    I have known Mary Ann Solberg now for about nine years. I 
first came to know her when the district changed and I 
represented Troy and she was the Executive Director of the Troy 
Community coalition. It was the leading light in this effort in 
the State of Michigan, and I think beyond, and I saw her work 
across all kinds of lines.
    I saw her work with law enforcement officials, with the 
faith-based community, with parents, with students. I saw her 
essentially work with everybody, and as a result the experience 
in Troy spread. They formed the Coalition of Healthy 
Communities which encompassed other communities around the city 
of Troy, which is a little less than 100,000 people in suburban 
Detroit.
    Because of her activities more than anything else, I became 
deeply involved and came to work with Rob Portman on the Drug-
Free Communities Act. So in substantial measure, Troy was one 
of the two or three models that sparked this Federal 
legislation that I think has been meaningful in this battle 
against the scourge of drugs. So she brings here a broad-based 
experience across all lines with drug courts, with law 
enforcement, with faith-based communities, with the business 
community, and with the education community.
    After the Act was put into place, the advisory committee 
was set up, and Mary Ann was appointed to it and later became 
its Chair. Through that and her other work on national 
committees, and she has been involved in several, she came to 
know this town, though never forgetting where she came from, 
and had a chance to work with people throughout the country.
    I would like to say to the three of you and to all the 
staff that is here from other members and to the other 
Senators, I was struck when I walked in the door by the number 
of people who were here from the groups that she has worked 
with. The Drug-Free Communities Advisory Committee I have come 
to know; I have served on it. I came in the door and I saw 
those faces, and the people who came here to support here 
believe in her capabilities.
    The head of CADCA and other representatives from CADCA with 
whom she has very much worked, and also the National 
Association of State Alcohol and Drug Directors and the Legal 
Action Center--their attendance here says so much, I think, 
about who she is and their feelings about her capabilities to 
serve in this capacity.
    So I have a written statement and I would ask that it be 
entered into the record.
    Senator Biden. Without objection, it will be.
    Representative Levin. This isn't the time, because your 
colleagues need to go on, but I would be glad, if there are any 
questions, to answer them. I think that with the person 
appointed by the President as the new drug czar that Mary Ann 
will be a terrific team. I think it is a reflection of the 
commitment of the administration to make drug policies and 
programs work at all levels that they decided to appoint Mary 
Ann Solberg.
    So I could not recommend anybody more highly, and as I said 
to one of you earlier, I think as she performs you will be very 
proud of Mary Ann, as Troy is, as Michigan is, as the advisory 
committee is that is so well represented here, as CADCA is 
proud of her, so well represented, and the other national 
organizations she has worked with, including the First Lady of 
Ohio.
    Thier attendance here, I think, says so much about how 
capable she is and how she will bring to this function 
dedication, determination. She is hard-nosed, she is a tough 
administrator. In other words, she will be terrific, and I hope 
you will vote her out and she will be confirmed.
    [The prepared statement of Mr. Levin follows:]

                Statement of Representative Sander Levin

    Mr. Chairman. Members of the Committee. I have had the privilege of 
working with Mary Ann Solberg for the last ten years. I am honored to 
be here before you on her behalf.
    Mary Ann Solberg has the commitment, credentials, and charisma to 
be an outstanding Deputy Director of the Office of National Drug 
Control Policy (ONDCP).
    She is an accomplished activist on behalf of reducing the demand 
for drugs in our nation. I have seen first hand the work she has done 
in Troy, Michigan as the Executive Director for the Troy Community 
Coalition for the Prevention of Drug and Alcohol Abuse and I have seen 
her bring this experience to the national level.
    Consider, that in the last ten years I have known Mary Ann, she has 
developed and sustained one of the best anti-drug coalitions in the 
country. She has fostered the growth of numerous other community 
efforts in the surrounding communities; including, but not limited to 
forming and running the 17-community umbrella organization, Coalition 
of Healthy Communities. She provided the inspiration and the real life 
examples that led Rob Portman and myself to author the Drug Free 
Communities program, a federal grant program that Congress has recently 
extended for a second five years.
    She has brought this expertise to the national level through 
leadership positions with numerous boards and advisory committees. She 
was appointed to the Advisory Committee to Develop a National 
Prevention System for the National Center for Substance Abuse 
Prevention. She was appointed to the Advisory Committee of the National 
AD Council's Community Anti-Drug Campaign. She was appointed to the 
Advisory Commission on Drug Free Communities and was subsequently 
elected to serve as co-chairperson.
    If you want to bring the best from the ``field'' to Washington, 
D.C., you are doing so by confirming Mary Ann Solberg's nomination. 
Mary Ann will devote herself to making what ONDCP does every day 
meaningful to our local communities.
    Yet the person that I have come to know in Mary Ann Solberg has a 
set of skills that in many respects is even more important then the 
vitally important perspective she will bring to the position of Deputy 
Director of ONDCP.
    Mary Ann Solberg is also a skillful manager who will build 
consensus, demand accountability, and focus like a laser beam on 
results. The City of Troy, or for that matter southeast Michigan, are 
not easy areas in which to organize. Mary Ann has captured people's 
attention, she has brought everybody to the strategic table, kept them 
involved in numerous activities, and together they have delivered 
results. I would hazard to guess that there is not a constituency group 
with which Mary Ann is unfamiliar. She has trained police, prosecutors 
and judges. She has partnered with them on numerous projects; including 
the establishment of a new drug court. She has generated active 
engagement by the business and faith communities. She has done this at 
home and she has trained numerous others to do the same nationally.
    I have seen Mary Ann in action in small group meetings, larger 
conferences and national meetings. She is a tremendous force; always 
generating countless ideas on how to further the cause of reducing 
substance abuse, always focusing everyone on concrete action steps, 
always empowering everyone to participate fully and always, always 
doing so with an energy, enthusiasm, and commitment to purpose which is 
contagious.
    I am confident that Mary Ann will excel in this position as she has 
in all others. She will inspire us to be tireless in our efforts, to 
look at a problem from all different angles, to bring all forces and 
all constituencies together to develop a solution and to demand at all 
times that ONDCP is working for those like her who work day-in and day-
out devoting their lives to reducing drug abuse in our local 
communities.

    Senator Biden. Thank you very much, Congressman.
    Now, I know all of you have busy schedules, so those of you 
who have already introduced, we fully understand your need to 
leave.
    Now, we will hear from one of the two men from Utah, which 
I learned in the last month or so is the first among the States 
in the Utah now. What a tremendous job you all did on the 
Olympics. We are going to hear from Mr. Flowers in a moment, 
which is an unusual practice. After these introducers, we will 
ask Mr. Flowers from Salt Lake to introduce one of our nominees 
as well. What an incredible job you all did, you and Orrin and 
the governor and Mit Romney. You have made America proud. 
Congratulations to Utah.
    Senator Bennett?

PRESENTATION OF SCOTT BURNS, NOMINEE TO BE DEPUTY DIRECTOR FOR 
STATE AND LOCAL AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY 
 BY HON. ROBERT BENNETT, A U.S. SENATOR FROM THE STATE OF UTAH

    Senator Bennett. Thank you very much for those kind words, 
Mr. Chairman, and I will accept them, as will Orrin, on behalf 
of the State, but recognize that they really belong to a whole 
bunch of people. Mr. Flowers is very much one of those, so I 
appreciate your allowing him to appear here. The Olympics were 
a great experience and we will bask in the glow of them for 
some time.
    I first got acquainted with Scott Burns and Alice Burns 10 
years ago when we were going through an arcane trial by ordeal 
that is established in Utah's political laws; that is, we were 
both running for office and going through a series of 29 
country conventions. You go to each one.
    In our case, there were four candidates for the Senate; 
five candidates for governor; two candidates for attorney 
general, one of which was Scott Burns; and an indeterminate 
number of candidates for the House, depending on which district 
you were in. But those of us who were running statewide had to 
go to every one.
    You are allowed two minutes and you sit there through all 
of that. And in the process of moving from county to county, 
you get to know the other people on the road show pretty well. 
Scott and Alice Burns were a very attractive young couple with 
a very attractive new baby, and his first experience at 
statewide politics. He was running for attorney general and he 
was running under a fairly significant handicap which 
ultimately prevented him from winning, although he came within 
a few hundred votes. As he put it, ``I come not from rural 
Utah, but from remote Utah.'' Most of the candidates for 
statewide office all come from the Salt Lake area and he came 
from Cedar City, where he was the Iron County attorney.
    In that process, as I say, I became well acquainted with 
him and with Alice, and enormously found of them. So after the 
election was over and he had failed to gain the attorney 
general spot by just a few hundred votes--and I think if he had 
lived a little farther north and would have been taken care 
of--I continued the friendship and found, as I would call him 
from time to time about various things relating to law 
enforcement, that he not only was a good law enforcement 
officer himself, which is his basic credential, but he was the 
most wired, plugged-in guy I had ever come across.
    There wasn't anybody in law enforcement across the country 
that he didn't know. I would call him with weird questions and 
he would say ``I will get back to you.'' And he would get on 
the phone and call his network of friends and come back with 
the answer that was spot-on. I was tremendously impressed with 
that. A county attorney in IronCounty, Utah, is not supposed to 
know the network of law enforcement people around the country, but he 
did.
    So when he shows up as the nominee for Deputy Director for 
State and Local Affairs, I cannot think of a better fit. There 
isn't anybody who would come into this job with a better 
network of contacts in State and local affairs on drug issues 
than Scott Burns.
    So you have his official biography in front of you and you 
have all of the information in front of you. Senator Hatch, who 
has been the driving force behind this nomination, is to be 
congratulated on recognizing Scott's talent. I simply want to 
make it clear that I have absolutely no reservations whatsoever 
in recommending him to this committee and to this Senate and to 
this Nation as the very best possible man to have this 
particular assignment. His background qualifies him, his 
network of contacts prepares him, and I think the country will 
be extremely well served as he assumes this responsibility.
    Senator Biden. Well, thank you, Senator. Scott should 
understand that your recommendation also means a lot to this 
committee, and the fact that the former chairman and maybe 
chairman again of this committee thinks highly of him quite 
frankly about assures his nomination, at least as far as I am 
concerned. I thank you very much for your comments.
    Senator Allen?

 PRESENTATION OF BARRY D. CRANE, NOMINEE TO BE DEPUTY DIRECTOR 
OF SUPPLY REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY AND 
   J. ROBERT FLORES, NOMINEE TO BE ADMINISTRATOR, OFFICE OF 
  JUVENILE JUSTICE AND DELINQUENCY PREVENTION, DEPARTMENT OF 
JUSTICE BY HON. GEORGE ALLEN, A U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, Senator Hatch, 
Senator Grassley. I would like to introduce Dr. Crane and 
Robert Flores. Mr. Burns has been well handled by all these 
others, as well as obviously Ms. Solberg.
    Seeing Mr. Burns and seeing their 11-year-old daughter, 
Carlie--I have a son who is 10 and who will soon be 11--when 
they move here, I hope they move to Virginia. It seems like 
they would be a good pair.
    Senator Bennett. I have already recommended that to them.
    Senator Allen. Virginia? Good, good, good.
    Representative Levin. A little young.
    Senator Allen. A little young, but you also have to think 
ahead.
    Senator Biden. Keep your registration in Utah.
    By the way, that young man behind you is writing a paper on 
government. I told her she could start off with one word, 
``confusion.''
    Senator Allen. Well, let me first introduce Mr. Crane here, 
Mr. Chairman, since we are talking about the Office of Drug 
Control Policy.
    Dr. Barry Crane is the nominee by the President to be 
Deputy Director for Supply Reduction at the National Office of 
Drug Control Policy. Dr. Barry Crane has a reputation, and it 
is a well-earned reputation, as a man committed to the 
principle of unbiased analytical research driving policy 
decisions. That is also coupled with the combination of 
operational practicability and academic rigor in the area of 
supply reduction, and that will help him serve with distinction 
upon his confirmation by the Senate.
    You have his resume and his record of achievement and 
performance. I would like to highlight a few. In the last ten 
years, he has served as project leader for the counter-drug 
research effort at the Institute of Defense Analysis. In this 
position, he has led research scientists and consultants in 
examining the effectiveness of interdiction operations against 
the cocaine business enterprise and the technical performance 
of many interdiction systems.
    Furthermore, Dr. Crane has worked extensively with the 
Department of State and the Department of Justice, the Drug 
Enforcement Administration, the U.S. Customs Service, and the 
United Nations drug control program efforts in Bogota, Lima, 
and Vienna.
    He obviously possesses in-depth knowledge of the complex 
heroin and cocaine business and their markets. He is always 
looking for better ways of doing it and he is the person 
ideally suited for this position. I would say that he also has 
a distinguished career--besides thedistinguished career in 
various drug control efforts, he served our Nation for 24 years in the 
Air Force, where among other duties he piloted fighter jets and earned 
a distinguished combat record.
    He earned his bachelor's degree in physics from the U.S. 
Air Force Academy in 1967, and his M.S. in 1976 and his Ph.D. 
in physics from the University of Arizona. Continuing his 
education, he did become a National Security Fellow at 
Harvard's JFK School of Government in 1987.
    He has been married for 34 years to Sherrie Crane, who is a 
docent at Gunston Hall, which is the home of George Mason, who 
wrote the Virginia Declaration of Rights which became the 
embodiment of the Bill of Rights--another reason why you should 
move to Virginia because of all that wonderful history.
    It is my pleasure obviously to highly recommend Dr. Crane 
for this nomination, and hope your swift confirmation will be 
forthcoming.
    Now, I also have the pleasure of introducing and presenting 
to this committee John Robert Flores, who is President Bush's 
nominee to be Administrator of the Office of Juvenile Justice 
and Delinquency Prevention in the Justice Department.
    Mr. Flores is a graduate of Boston University School of Law 
and is a member of the bar in New York, Massachusetts, and 
Virginia.
    Both of these individuals, by the way, live in Virginia, 
showing good judgment, I might say, Dr. Crane in Burke. Mr. 
Flores, though, has extensive backgrounds actually outside of 
Virginia. He has been a lawyer for 17 years and has held a 
number of positions in and outside of government.
    He served as an assistant district attorney in the Roxbury, 
Massachusetts, public defender's office. He also served as an 
acting deputy chief and senior trial attorney in the Child 
Exploitation and Obscenity Section of the Justice Department's 
Criminal Division, and most recently as senior counsel and vice 
president for the National Law Center for Children and Families 
in Fairfax, Virginia. His commitment to justice is well-known. 
He has been a tireless advocate on behalf of children and 
families, addressing the issues of child sexual abuse and 
exploitation.
    Also, since 1997, Mr. Flores has assisted a research effort 
on international sex trafficking that is currently based at 
Johns Hopkins University's School for Advanced International 
Studies. Mr. Flores brings substantial management expertise to 
this position, having managed national investigative programs, 
a section within the Justice Department's Criminal Division, 
and a non-profit educational organization that assists State 
and local law enforcement.
    Mr. Flores has also shown an ability to work constructively 
with both sides of the aisle on important issues. For example, 
Mr. Flores was part of the congressionally-created Commission 
on Online Child Protection. The commission was charged with 
informing the Congress on what avenues should be taken to 
increase protection of children on the Internet. The commission 
reached several unanimous conclusions and Mr. Flores was 
instrumental in bridging gaps between commissioners.
    In addition to his honorable service to his country, Mr. 
Flores is a devoted husband and father. He is married to Ingrid 
Flores, who is here, and they have three children, Robert, 
Catherine, and Clare.
    Senator Biden. I might add they are showing incredible 
patience. I don't mean with your comments; I mean with all of 
us. [Laughter.]
    Senator Allen. I know. I have one that just turned 4 and I 
was just amazed at how quiet they were even in the beginning. I 
think, Mr. Chairman, the perspective of a parent does help, 
understanding what his children might be faced with and those 
challenges.
    I would also add, Mr. Chairman, Mr. Flores is a Hispanic 
American. He can serve as a role model. I know there are 
members and many of us who are concerned with the challenge 
that the office will face with the issue of disproportionate 
minority confinement, and I think that brings a special 
sensitivity and understanding in that leadership role.
    So as a teacher, a scholar, and a commentator on 
constitutional and criminal law, Mr. Flores has certainly shown 
and demonstrated the skills necessary to lead this effort in 
the Office of Juvenile Justice and Delinquency Prevention. I 
highly recommend him to the committee, and thank you all for 
your consideration.
    Senator Biden. Well, I thank you, Senator, and I thank all 
of our colleagues. We appreciate your time and your effort and 
your input. Thank you very, very much.
    Senator Allen. I would say that my remarks are also on 
behalf of Senator Warner, who is in the Armed Services 
Committee undoubtedly now, and I know he shares my feelings.
    Senator Biden. Well, I was about to say, with the 
permission of the committee, Senator Warner has signed 
statements--he apologized for not being able to be here--with 
regard to both the nominees mentioned by his colleague and I 
will enter those in the record, as if read, along with an 
introductory and complimentary statement relating to the 
nominees from the chairman of the committee, Senator Patrick 
Leahy.
    [The statements of Senator Warner follow:]

 Statement to the Judiciary Committee on the Nomination of Barry Crane 
 To Serve as Deputy Director of the Office of Supply Reduction at the 
                    Office of National Drug Control

    Chairman Leahy, Senator Hatch, and my other distinguished 
colleagues on the Senate's Judiciary Committee, I am pleased today to 
introduce to the Committee Colonel Barry Crane, a Virginian, who has 
been nominated to serve as Deputy Director of the Office of National 
Drug Control Policy's (``ONDCP'') Office of Supply Reduction.
    As you know, the ONDCP's purpose is to establish policies, 
priorities, and objectives for the Nation's drug control program. The 
division within the ONDCP that Mr. Crane has been nominated for, the 
Office of Supply Reduction, is responsible for advising the Drug Czar 
on policies and programs to reduce the supply of drugs in this country.
    In my view, Mr. Crane's background makes him well-suited for this 
position.
    Mr. Crane is currently a project leader in the Operational 
Evaluation Division at the Institute for Defense Analysis where he 
examines the effectiveness of interdiction operations against the 
cocaine business enterprise.
    Prior, Mr. Crane served in the United States Air Force for over 20 
years, starting as a cadet at the Air Force Academy, later becoming a 
fighter pilot, and eventually retiring as a Colonel in September of 
1991.
    In addition to his military service, Colonel Crane, also has an 
extensive education. After graduating from the Air Force Academy with a 
B.S. in Physics, Mr. Crane attended the University of Arizona where he 
received both a master's degree and a Doctorate. Mr. Crane later served 
as a National Security Fellow at the Kennedy School of Government at 
Harvard University.
    Colonel Crane has dedicated a large portion of his career to public 
service, and I thank him for his willingness to serve our country again 
as Deputy Director of the Office of Supply Reduction.
    I look forward to the Committee reporting his nomination favorably 
and for a confirmation vote before the full Senate.

Statement to the Judiciary Committee on the Nomination of Robert Flores 
    To Serve as Administrator of the Office of Juvenile Justice and 
          Delinquency Prevention at the Department of Justice

    Chairman Leahy, Senator Hatch, and my other distinguished 
colleagues on the Senate's Judiciary Committee, I am pleased today to 
introduce to the Committee Mr. J. Robert Flores, a Virginian, who has 
been nominated to serve as Administrator for the Office of Juvenile 
Justice and Delinquency Prevention (``OJJDP'') within the Department of 
Justice.
    The OJJDP's mission is to provide leadership, coordination, and 
resources to prevent and respond to juvenile delinquency and 
victimization. OJJDP accomplishes this by developing prevention and 
intervention programs and by working to improve the juvenile justice 
system so that it protects public safety, holds offenders accountable, 
and provides treatment and rehabilitative services.
    As you all know, the OJJDP has an important mission. In my view, 
Mr. Flores' extensive background in public service, the law, and in 
child protection makes him well qualified to work in support of OJJDP's 
mission.
    Mr. Flores started his career after graduating from law school at 
Boston University by becoming an Assistant District Attorney in 
Manhattan. During his 5 years as prosecutor in New York, Robert Flores 
prosecuted a wide array of criminal cases.
    In 1989, Mr. Flores joined the U.S. Department of Justice, working 
as a Senior Trial Attorney in the Criminal Division's Child 
Exploitation and Obscenity Section. In this position, Mr. Flores worked 
extensively in child sexual exploitation and computer crimes.
    In 1997, Mr. Flores joined the National Law Center for Children and 
Families, whose objective is focused on the protection of children and 
families from the harmful effect of illegal pornography. In this role, 
Mr. Flores specialized in providing advice and assistance to federal 
and state prosecutors across the country on the investigation and 
prosecution of child pornography, child sexual abuse, and crimes of a 
similar nature.
    Mr. Flores has obviously dedicated a large part of his career to 
both public service and to protecting children. I am grateful that he 
is willing to continue his public service, and I believe that his 
background will serve him well at the OJJDP.
    I look forward to the Committee reporting his nomination favorably 
and for a confirmation vote before the full Senate.

    Senator Biden. Thank you, gentlemen. We appreciate it very 
much.
    Now, in a very unusual procedure, in deference to our 
colleague, Senator Hatch, but also in recognition of the 
incredible job the Commissioner of Public Safety in Salt Lake 
City, Utah, did during the Olympics--and I really cannot 
exaggerate the importance of the job done by Robert L. Flowers 
and the whole State of Utah, but as Commissioner of Public 
Safety he had an enormous responsibility. The whole world was 
looking at him and he conducted it with great class, skill, and 
efficiency, and we welcome him here today.
    This is the time, sir, that you should wish you were being 
nominated for something because it would be done by acclamation 
at this point. But welcome, Mr. Flowers.
    Would you like to make any comment, Senator?
    Senator Hatch. Well, I would like to thank you, Mr. 
Chairman, for permitting this. This is highly unusual to have 
another witness in this type of a hearing, but I just can't 
tell you what this man has meant to the world at large in 
helping to bring about security for the Olympic Games that 
really was second to none, and in helping to bring about one of 
the few times in history where State, local, and Federal 
agencies all worked together in unison, resolving difficulties 
as they go, to provide the protection for one of the world's 
most impressive and important events. Bob Flowers deserves an 
awful lot of the credit for that, and others who are here with 
him.
    So it is a privilege to have you here, Mr. Flowers, and I 
just want you to know how proud we all are of you and how proud 
we are of the way the Olympics went. Our country is very much 
impressed with what went on.
    Senator Biden. There is one condition, Commissioner, that 
you not announce for the United States Senate at any time in 
the near future. Otherwise, you will not be permitted to 
proceed.

STATEMENT OF ROBERT L. FLOWERS, COMMISSIONER OF PUBLIC SAFETY, 
                      SALT LAKE CITY, UTAH

    Mr. Flowers. No, sir. I can personally commit to you that 
is not going to happen. I am from remote Utah and we only have 
like 30 voters out there, so I probably wouldn't get very far 
with that.
    Senator Biden. Well, I will tell you the whole world 
watched with initially a bit of dread and a great deal of 
concern. And I cannot exaggerate how important it was, the 
coordination and the work and the incredible--I mean, having 
dealt with the criminal justice system and coordination between 
State and local officials for the bulk of my public career of 
29 years in the Senate, it is incredibly difficult.
    It was gigantic in its proportions, and its consequences, 
if you had failed, would have been beyond being able to be 
calculated, in my view, in terms of the impact on this country. 
So we in Delaware owe you a lot.
    But at any rate, please proceed.
    Mr. Flowers. Well, thank you very much. It is an honor to 
be here, first off, but we can't emphasize enough that this was 
an effort both Federal, State, and local. We came out here 
after September 11 looking for additional support and the doors 
were open, and it was an American event, not a Utah event. We 
were just pleased to be a part of that. It went well because of 
Brian Stafford at the Secret Service and many others who were 
assisting, some of them in this room, actually.
    First of all, it is a little unraveling to be here. When I 
looked down and saw my name as a second panel and then, Senator 
Biden, you saying that was an unusual practice--that worried me 
a bit. You know, we were a little bit unraveled when we walked 
in the door.
    I will just take a few minutes and talk about Mr. Burns. As 
a former police chief and now Commissioner of Public Safety, we 
faced a heck of a problem in southern Utah. We were a border 
town on the Arizona-Nevada border. We had Mexican mafia, 
motorcycle gangs. You know, when you are in a border town you 
are kind of on your own there. We had individuals who were 
committing homicides living in Nevada, selling their drugs in 
Arizona, and dumping their bodies in Utah.
    I had worked with Mr. Burns. We had probably one of the 
first task forces in the West, frankly, and it was very 
successful and we were taking hundreds of kilos of cocaine off 
the interstates, hundreds of thousands of dollars. We were 
quite successful.
    We came out and talked with the DEA and they were quite 
impressed with what we did and wanted to know how we were doing 
that. A lot of it was frankly led by the prosecutor,because 
without a strong prosecutor who has a balanced position on things, you 
run into some problems.
    Then I was selected as a police chief and I inherited this 
problem. I didn't really know how to deal with it. We were, 
again, a border town on three States, and I went to Mr. Burns 
and I said, you know, I don't know what to do with this. We 
were being overrun by meth. We had some real issues in our high 
schools. Through Senator Hatch, we were able to get the DEA 
down there and they helped us solve our problem. So as far as 
being networked, I have to agree with Senator Bennett. I don't 
know how he did that, but I know I and my community will be 
eternally grateful for that because our city did change.
    One of the things also that Mr. Burns was talking about 
long before it was popular was things like drug courts and 
rehabilitation and things like that, and making sure that the 
law enforcement officers were approaching this legally, that we 
were doing things right, and that our case could stand up in 
court.
    I mean this sincerely: he formed my enforcement policy. I 
have every intention of modeling his leadership style and drug 
task force leadership statewide. Now, we are looking in 
Colorado, we are looking into Wyoming, and we are trying to 
team up with Nevada. So we are looking at this task force 
concept and making it really work in our three- or four-State 
area out there.
    So as far as it goes from Utah law enforcement--and I also 
spoke to my Wyoming counterparts, my Colorado counterparts, and 
an individual from Nevada, and they said please express our 
support for Scott Burns in this nomination, and if there is 
anything we can do, we are here to assist that.
    With that, I will be brief and I will go back and sit down, 
but thank you for the opportunity. It is an honor to be here, 
Senator Biden, and be before you also, Senator Hatch.
    Senator Biden. Well, it is an honor to have you here.
    I know Moab. I got off a raft on the Colorado River for two 
days in Moab, Utah, and it is a great place. The water got kind 
of calm down there, Scott, and I got tired. After 10 days I got 
off the river and went to the hot spots in Moab, in 1974 and 
1975. It is a beautiful and fascinating part of the world, 
although things have changed a little bit, as you have said, 
with the growth of trafficking in meth and a lot of other 
substances.
    It is an example of what rural communities--and I know it 
is not a little town, but what rural communities and isolated 
communities, particularly on borders between States, are 
undergoing. Most people don't realize it, but you realize it, 
that a child is more likely to be exposed to meth and to 
cocaine in rural America than in urban America today.
    Mr. Flowers. That is right.
    Senator Biden. Fifty-five percent of the over 3,000 
counties in America have no psychologists, no psychiatry, no 
treatment, no anything in those facilities. So the job is a 
heck of a lot tougher, and it is a credit to you and to the 
person you are praising that you have got things pretty well 
under control.
    So welcome, and unless the Senator has anything more to 
say----
    Senator Hatch. Let me just thank you, Bob, and I thank the 
chairman here for allowing you to testify because I think it is 
very important for this country to hear your story and to know 
what you have been able to do, along with Earl here and others 
who are here with you, and Scott Burns in particular. I have 
inestimable respect for all of you.
    Scott, you have to be very pleased that these folks have 
traveled all the way back to support you. You and Alice have to 
be pleased with that, and it says a lot about you that I know 
this committee will take into consideration.
    So thanks for being here and thanks for taking the time.
    Mr. Flowers. It is an honor to be here, sir.
    Senator Hatch. And thanks for what you did for the whole 
world out there in Utah.
    Mr. Flowers. Well, we are glad it went off well. It was 
unraveling and we were a bit nervous for 13 days, and that roar 
at the end was us; it was not the crowd at the closing 
ceremonies. So thank you.
    Senator Biden. Thank you.
    Now, I would ask all of our nominees to come forward--Mary 
Ann Solberg, Barry Crane, Scott Burns, and John Robert Flores.
    I think, Mary Ann, they are seating you on my left here, 
and then Dr. Crane, Mr. Burns, and Mr. Flores. We will proceed 
in that order, but before we begin I would like you all to 
remain standing while I swear you in.
    Do you swear that the testimony you are about to give 
before this committee will be the truth, the whole truth and 
nothing but the truth, so help you God?
    Ms. Solberg. I do.
    Mr. Crane. I do.
    Mr. Burns. I do.
    Mr. Flores. I do.
    Senator Biden. Please be seated.
    I would invite you, Ms. Solberg, to begin with any opening 
statement you may have, and then we will move to your left and 
then will proceed with questioning. Welcome.

 STATEMENT OF MARY ANN SOLBERG, NOMINEE TO BE DEPUTY DIRECTOR, 
             OFFICE OF NATIONAL DRUG CONTROL POLICY

    Ms. Solberg. Thank you. Chairman Biden, Ranking Member 
Hatch, and Senator Grassley, it is an honor to be here today to 
be considered for the position of Deputy Director of the Office 
of National Drug Control Policy.
    I would like to take just a moment, if I may, to introduce 
to all of you my daughter, Laura, who is sitting behind me, and 
her friend, Kent Trowbridge. I would also like to introduce to 
you, because they have traveled so far today, the president of 
the Troy Community Coalition, Ida Edmunds, and the 
Superintendent of the Troy School District, Dr. Jamet Jopke, 
both instrumental in my program.
    Senator Biden. Would you both please stand?
    [Ms. Edmunds and Ms. Jopke stood.]
    Senator Biden. Welcome.
    Ms. Solberg. I have submitted a statement for the record 
and I would like it to be included in full.
    Senator Biden. It will be included.
    Ms. Solberg. I will keep my remarks brief this morning.
    I have for the past 11 years worked across the continuum of 
substance abuse prevention, treatment, and interdiction. I have 
worked at every level of government and I have worked with a 
huge variety of sectors, including parents, police, the courts, 
the faith community, and business.
    I have taken Federal programs and I have translated them to 
community outcomes, decreasing substance abuse, as is noted in 
my statement, across multiple ages and multiple drugs. I 
understand Federal programs, I understand community needs.
    It is important that we continue the reduction in substance 
abuse that we have witnessed recently. The President and 
Congress care about this issue. You have provided the tools. I 
have the experience and the ability to motivate and to involve 
that vast volunteer cadre that really is necessary if we are 
going to achieve the goals in the 2002 national drug control 
strategy.
    I look forward to working with Director Walters, with Dr. 
Barthwell, and with my fellow nominees. Together, we have a 
vast array of expertise, the expertise the American people 
deserve. Together, as a team, I believe that we have a 
wonderful chance of reducing substance in the United States.
    I thank you.
    [The prepared statement of Ms. Solberg follows:]

Testimony of Mary Ann Solberg, Nominee To Be Director of National Drug 
                             Control Policy

    Chairmen Leahy and Biden, Ranking Member Hatch, and distinguished 
members of the Committee: It is an honor to appear before you today as 
you consider my nomination for Deputy Director of National Drug Control 
Policy.
    Over the course of my career in the field of prevention, I have 
observed how deeply the power of a movement lies in the will of the 
people. Churchill understood that simple fact. So did Franklin 
Roosevelt and Abraham Lincoln, Ronald Reagan and Martin Luther King. It 
is a power that I have seen produce miracles, large and small, in 
substance abuse prevention and reduction. It is the power of what each 
of us, working together, can achieve. In my estimation, it is the power 
that gives energy to the motto ``Prevention Works.'' Prevention DOES 
work. Treatment works. Moreover, they work hand in hand with law 
enforcement and interdiction efforts that are equally important in 
controlling this scourge that threatens our youth, families and 
communities.
    Where there is community will and volunteer commitment and 
experienced leadership to balance the professional contributions of law 
enforcement and the federal government, the public health problem that 
is substance abuse can, indeed, be controlled if not eradicated. The 
effectiveness of community coalitions is one of the best-kept secrets 
in the United States. I know--I am part of a highly successful 
community coalition. The spirit of the Troy Community Coalition for the 
Prevention of Drug and Alcohol Abuse grabbed me immediately and kept me 
in its thrall for 11 years in a field where burnout is endemic.
    We changed laws. We changed attitudes of youth related to drug use. 
We increased the knowledge and capacity of local youths, adults, and 
institutions to respond effectively to substance abuse issues. We 
partnered with law enforcement and the courts, with business and 
schools. We become an active player at several community leadership 
tables. And today, we are seeing some effects on actual drug use: 
marijuana use is declining, binge drinking is declining, middle school 
tobacco use is declining, and age-of-onset of first use of tobacco is 
increasing. We have affected not only knowledge and attitudes, but we 
also have had a real effect on behavior. Moreover, when the news of our 
success filtered to surrounding communities, they, too, were eager to 
join in. The result is the Coalition of Healthy Communities, a 
collaboration of seven substance abuse prevention coalitions 
encompassing seventeen communities in southeast Oakland County, 
Michigan.
    The Troy program advanced rapidly because of the resources provided 
by a seed grant from the Federal government, through SAMHSA's Center 
for Substance Abuse Prevention. This job is too big for communities to 
go it alone. They need guidance and support from their state and 
federal government; they need the expertise and professionalism that 
ONDCP and other Federal agencies such as CSAP and NIDA can offer. My 
experience as a grant recipient will be invaluable as I work at ONDCP. 
I understand the process but more importantly this first hand knowledge 
will allow me to target real community needs as I work nationally to 
achieve lasting reduction in drug abuse.
    And the results must be evaluated. We have been fortunate in having 
a university in our community that was willing to provide us evaluative 
services from the outset. Documenting our progress was the credibility 
factor the community required. In Troy we operate our community 
coalition as a business, not just a prevention program. Our inspiration 
comes as much from management Guru Peter Drucker as it does from 
Professor Hawkins and Catalano, whose theory of risk factors in their 
book the early 1990s ``Communities that Care'' so changed the landscape 
of substance abuse prevention. That means targeting goals, setting up a 
business plan, and marketing, marketing, marketing.
    Only a few months after our formation, a community survey revealed 
that nearly 60 percent of the community recognized our name and could 
describe our mission. That's huge. Our volunteer pool is immense. The 
secret? Letting people know how vital is their role as mentors and 
coaches, engaged in skills training and finding community solutions to 
such problems as alternative activities for kids. These are lessons 
learned that will be invaluable in my work at ONDCP. If I have a single 
mantra about substance abuse prevention it is this: multiple strategies 
over multiple sectors. The comprehensive approach outlined by the 
President is crystal clear: attacking this problem on multiple fronts 
is the only route to success. This means stopping the drug dealers in 
our cities and our rural communities. It means stopping the traffickers 
who seek to make their millions off the souls of our children. It means 
strengthening our families so that our youth have the resilience to say 
``no.'' It means bolstering the job market so that adults won't turn to 
drugs as an antidote for their failures. It means giving our police and 
our courts the tools they need to deal with the problem when the other 
strategies have failed. And it meansstripping substance abuse of its 
glamour and mystique that attracts young people like a siren's song.
    The ONDCP Media Campaign has been invaluable in this respect. Its 
messages to parents are superb. The parenting aspects of the media 
campaign have been incredibly helpful, as has been their work with the 
Ad Council to promote coalitions, a campaign that has given coalitions 
both national visibility and credibility. We know we can't do it all, 
and we can't do it alone. We can't grab their attention--be it parents 
or youth--as television does. However, if the media wasn't a player in 
this campaign, the negative messages would prevail. It is vital we 
maintain this relationship and explore every possible means of reaching 
people. The media campaign has also taught us to talk to our kids and, 
even more importantly, to listen. It is a strategy that has been part 
of the foundation of the Troy Community Coalition since its inception. 
We bring in the movers and the shakers of the community as well as 
parents and clergy, law enforcement and health providers. Then we let 
the young people talk, and we listen. We listen hard, and then take 
action. The youth become our mentors, our coaches and our partners.
    Another reason we have been successful in Troy is that we are 
relentlessly inclusive. We try to have everyone at the table at all 
times. We make special effort to involve groups who aren't used to 
being part of the community as a whole. And once we get them to the 
table, we keep them there. We have not lost a single member of the 
coalition since its inception save those who have moved away. We 
cultivate and nurture our community partners. We make sure our 
volunteers are regularly recognized. We give back to our businesses and 
schools and corporations. That inclusiveness is important for ONDCP as 
well, as it seeks to involve all sectors in a balanced effort to stop 
drugs: community activism, dedicated law enforcement and interdiction 
efforts that go far beyond our borders.
    Prevention alone won't solve this public health problem. Clearly we 
need treatment for those already caught in the vicious cycle of drug 
abuse, and we need to do everything in our power to stem the flow of 
drugs into our communities. The same research that has alerted us to 
the risk and protective factors that underlie drug use has shown us 
that availability leads to early use. Make it harder for kids to get 
drugs, and fewer of them will become users. We have to control access 
with as much fervor as we mobilize communities. My commitment to 
multiple strategies across multiple sectors is perfectly reflected in 
the balanced approach that ONDCP espouses: the coordination of efforts 
to eliminate or reduce drug trafficking through the High Intensity Drug 
Trafficking Area (HIDTA) Program, the counterdrug enforcement research 
and development efforts, the National Youth Anti-Drug Media Campaign, 
and support of community efforts through the Drug-Free Communities 
program. There's room for all strategies here: Prevention, Education, 
Treatment and Interdiction. The four strike a balanced approach that 
leads to lowered drug use.
    Moreover, we need to continue to support the work being done at the 
National Institutes of Health, specifically at the National Institute 
on Drug Abuse, in the research arena. Knowing how drugs affect the 
brain, both short and long term, is vital information to get out to the 
community. Second to parents, it's one of the best antidotes I know. I 
have had some experience in community-based treatment through the drug 
court program. A drug court that was recently established in Troy 
decided to take on some of the hard-core cases that some drug courts 
shun. The results have been miraculous. Thereward/reinforcement 
approach coupled with sound treatment clearly works. And this is a big 
problem, bigger than many of us realize. As a coalition leader, the 
most frequent question I get asked is about treatment, even though my 
focus is prevention. It's a recurring question: ``I have a wife, a 
daughter, a son, a grandparent with a problem. Where can I take them to 
get help?'' We make our communities and our businesses and our insurers 
understand how vital treatment is to achieving our goals of reducing 
substance abuse. And we must continue to advocate relentlessly against 
legalization, a step that I believe would cancel many of the gains we 
have made in the past decade.
    As deputy director of ONDCP, I would work tirelessly to mobilize 
our communities and our national will to continue the campaign against 
substance abuse, to end the tragic loss of life that it incurs and to 
reverse the significant losses in productivity and earnings, estimated 
in the billions, that serve as its collateral damage. We need to 
tirelessly promote the reality that all organizations and agencies in 
communities, all concerned citizens, and all local, state and federal 
policy makers have an important role to play in ridding our country of 
drugs.
    Just as our leaders and our Congress has made clear that the war on 
terrorism will be a complicated, drawn out process, so, too, is our 
campaign against drug abuse. But for every community, every 
neighborhood, every shop, every precinct, every school, every street 
corner, and every family where substance abuse has left its mark, we 
can collectively make a difference.
    Thank you for this opportunity to testify and I look forward to 
answering any questions the Committee may have.

    [The biographical information of Ms. Solberg follows:]

    [GRAPHIC] [TIFF OMITTED] T5793A.001
    
    [GRAPHIC] [TIFF OMITTED] T5793A.002
    
    [GRAPHIC] [TIFF OMITTED] T5793A.003
    
    [GRAPHIC] [TIFF OMITTED] T5793A.004
    
    [GRAPHIC] [TIFF OMITTED] T5793A.005
    
    [GRAPHIC] [TIFF OMITTED] T5793A.006
    
    [GRAPHIC] [TIFF OMITTED] T5793A.007
    
    [GRAPHIC] [TIFF OMITTED] T5793A.008
    
    [GRAPHIC] [TIFF OMITTED] T5793A.009
    
    [GRAPHIC] [TIFF OMITTED] T5793A.010
    
    [GRAPHIC] [TIFF OMITTED] T5793A.011
    
    [GRAPHIC] [TIFF OMITTED] T5793A.012
    
    [GRAPHIC] [TIFF OMITTED] T5793A.013
    
    [GRAPHIC] [TIFF OMITTED] T5793A.014
    
    [GRAPHIC] [TIFF OMITTED] T5793A.015
    
    Senator Biden. Thank you very much.
    I see Senator Warner has come in. We noted that he was 
necessarily absent on Armed Services Committee business and we 
have put his statements in the record regarding two nominees, 
but we welcome him and invite any comment he would like to 
make.

STATEMENT OF HON. JOHN WARNER, A U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Warner. Mr. Chairman, I thank you very much. 
Senator Allen introduced my statements.
    Senator Biden. He did.
    Senator Warner. I am simply here to observe for a brief 
period, and I thank the Chair and I welcome our nominees who 
are offering themselves to public service.
    Senator Biden. Thank you very much, Senator.
    Dr. Crane?

 STATEMENT OF BARRY D. CRANE, NOMINEE TO BE DEPUTY DIRECTOR OF 
    SUPPLY REDUCTION, OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Crane. Chairman Biden and Senator Hatch and 
distinguished members of the committee, I really want to thank 
you for having this hearing today and I want to thank the 
President for the honor of nominating me. I especially want to 
thank Senator Warner and Senator Allen for their introduction.
    I want to acknowledge here today my wife, who has been with 
me all these years in service to our country. She has supported 
us in time of war when we were in Operation Homecoming. She 
currently volunteers and teaches little children about how the 
Bill of Rights came at Gunston Hall, so I want to acknowledge 
her.
    Senator Biden. Welcome.
    Mr. Crane. I will keep my opening remarks brief and 
respectfully request that the committee enter my entire written 
statement.
    Mr. Biden. Your entire statement will be placed in the 
record.
    Mr. Crane. My professional research since 1993 at the 
Institute for Defense Analysis has reinforced my own personal 
philosophy that our country needs a balanced drug control 
policy. You have to have all of these things--prevention, 
treatment, enforcement, international, and interdiction 
activities.
    Each drug control program has its own merits, but it will 
be my job, if confirmed, to assist the director in developing 
and implementing effective supply reduction policies. Effective 
supply reduction not only will reduce the supply of illicit 
drugs that enter our borders, but it will also disrupt the 
profit margins of the drug traffickers. And these are 
ordinarily used to expand markets, but most notably in this 
time of war and terrorism, a lot of these funds have gone to 
expand terrorism and really violent and evil things in our 
world. So this will be an important job. I look at this as a 
national security job as well as a drug control job.
    My recent professional experience has been well-suited for 
this post. I have provided support to the United States 
interdiction coordinator, Admiral Loy, since 1994, and I have 
made many recommendations over time on how to improve our 
operations.
    I have also supported the Department of Defense in its role 
of detection of monitoring, and also we did reviews of the 
internal demand control programs in the Department of Defense 
to minimize drug problems within armed services personnel.
    We also did a lot of research on the law enforcement 
operations of the Coast Guard for the Office of Law 
Enforcement. Our research developed an in-depth understanding 
of how these illicit drug enterprises actually work, and it is 
principally based on observations and recorded data.
    Our empirical approaches have been tested and validated by 
a number of independent data sources, and also many operations 
spanning really decades of time. They have enabled our research 
team to characterize and quantify the largest effects 
attributable to individual and collective supply control 
operations, and to formulate insightful, practical, and useful 
drug trafficking deterrents. As you know, the hit-and-run 
operations came really out of the research. We have to arrest 
these people. It really increases operational performance, so 
the specialized units for the Coast Guard came out of this. As 
deputy director, I will aid the director and use these as a 
basis for policy formation.
    In conclusion, I am very grateful for this nomination and I 
want to thank all the Senators for their great support over 
this time. Thank you very much.
    [The prepared statement of Mr. Crane follows:]

 Statement of Barry D. Crane, Nominee To Be Deputy Director for Supply 
           Reduction, Office of National Drug Control Policy

    Chairmen Leahy and Biden, Ranking Member Hatch, and distinguished 
Members of the Committee: I want to thank the President for the honor 
of nominating me to the Office of the Deputy Director for Supply 
Reduction, Office of National Drug Control Policy, and I am grateful to 
the Committee on the Judiciary for considering my nomination.
    My professional research since 1993 at the Institute for Defense 
Analyses \1\ has reinforced my personal philosophy that our country 
needs a balanced drug control policy, encompassing a wide array of 
prevention, treatment, domestic enforcement, and international, and 
interdiction activities. Each drug control program has its own merits 
and it will be my job, if confirmed, to assist the Director in 
developing and implementing an effective supply reduction policy that 
complements the many positive contributions of demand reduction. 
Effective supply reduction not only will reduce the supply of illicit 
drugs that enter our borders, but it will also disrupt the profit 
margins of drug traffickers--ordinarily used to expand markets and to 
finance other illegal activities, including, most notably, terrorism. 
In this time of war, my initial focus as Deputy Director for Supply 
Reduction will be the connection of drug markets to the financing of 
terrorist organizations.
---------------------------------------------------------------------------
    \1\ Page VI-2, Empirical Examination of Counterdrug Interdiction 
Program Effectiveness, Jan 1997.
---------------------------------------------------------------------------
    My recent professional experience is well suited for my nominated 
post. I aided the U.S. Interdiction Coordinator in analyzing the 
effectiveness of interdiction operations and developing recommendations 
for improvements in these operations. I supported the Department of 
Defense in evaluating the effectiveness of DoD's detection and 
monitoring mission and DoD's internal demand control programs.\2\ My 
research team provided numerous detailed technical assessments for the 
Joint Interagency Task Force East of the U.S. Southern Command. Also, 
my research team analyzed the effectiveness of law enforcement 
operations for the Office of Law Enforcement, United States Coast 
Guard, and for country attaches of the Drug Enforcement Administration.
---------------------------------------------------------------------------
    \2\ Our demand research was used to understand how the military 
dramatically reduced its drug abuse problem to levels far below the 
general population.
---------------------------------------------------------------------------
    Our research has developed an in-depth understanding of how illicit 
drug enterprises actually work, and our research is principally based 
upon observations and recorded data rather than academic theories.\3\ 
Our empirical approaches have been tested on and validated by 
independent data sources, some spanning decades of events. They have 
enabled our research team to characterize and quantify the largest 
effects attributable to individual and collective supply control 
operations, and to formulate insightful and practically useful drug 
trafficking deterrence models. Our research has been used to improve 
supply control operations. As Deputy Director for Supply Reduction, I 
will continue use an empirically-based approach to guide our policy 
formulation.
---------------------------------------------------------------------------
    \3\ Most previous research adhered to a priori academic research 
that has had limited practical success in explaining actual data and 
observed behaviors. For example, the simultaneous dramatic drop in both 
cocaine price and usage in the early 1980's has not been explained.
---------------------------------------------------------------------------
    In conclusion, I am grateful for the nomination of Deputy Director 
for Supply Reduction, I look forward to serving my country in that 
capacity, and I am ready for the hard work and the many challenges that 
lay ahead.

    [The biographical information of Mr. Crane follows:]

    [GRAPHIC] [TIFF OMITTED] T5793A.016
    
    [GRAPHIC] [TIFF OMITTED] T5793A.017
    
    [GRAPHIC] [TIFF OMITTED] T5793A.018
    
    [GRAPHIC] [TIFF OMITTED] T5793A.019
    
    [GRAPHIC] [TIFF OMITTED] T5793A.020
    
    [GRAPHIC] [TIFF OMITTED] T5793A.021
    
    [GRAPHIC] [TIFF OMITTED] T5793A.022
    
    [GRAPHIC] [TIFF OMITTED] T5793A.023
    
    [GRAPHIC] [TIFF OMITTED] T5793A.024
    
    [GRAPHIC] [TIFF OMITTED] T5793A.025
    
    [GRAPHIC] [TIFF OMITTED] T5793A.026
    
    [GRAPHIC] [TIFF OMITTED] T5793A.027
    
    Senator Hatch [presiding]. Well, thank you, Dr. Crane.
    Senator Biden had to take a phone. So, Scott Burns, we will 
now take your testimony.

  STATEMENT OF SCOTT BURNS, NOMINEE TO BE DEPUTY DIRECTOR FOR 
STATE AND LOCAL AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY

    Mr. Burns. Thank you. Ranking Member Hatch, Senator 
Grassley, Senator Warner, I will keep my statement brief, as 
the others, hopefully under two minutes, and I respectfully 
request that the committee enter my written statement for the 
record.
    Senator Hatch. Without objection, we will do exactly that.
    Mr. Burns. I am honored to appear before you today as the 
nominee for Deputy Director of State and Local Affairs of the 
Office of National Drug Control Policy. I want to express my 
sincere appreciation to you, Senator Hatch, for your kind 
remarks, to Senator Bennett, and for your willingness to bring 
Public Safety Commissioner Flowers out here from Utah, not only 
I know to honor him, but that he would be willing to come out 
here on my behalf. I thank you sincerely.
    Senator Hatch. Thank you. We are grateful to him as well.
    Mr. Burns. As a prosecuting attorney, over the past 15 
years I have seen firsthand the devastating effects of illicit 
drug use in this country. I have observed the smuggling and the 
distribution and the use of marijuana that has risen and fallen 
over the years, depending on the market.
    I was there for the initial popularity and no harm done by 
using cocaine, and therefore the devastation of that drug that 
we all learned about; the proliferation of methamphetamine that 
is moving from the East Coast to the West Coast, and dealing 
with methamphetamine labs and clean-ups, but more, I guess, the 
clean-up of the hearts and the souls and minds of those that 
become addicted.
    I have been there for the latest craze of GHB and club 
drugs. And, Senator Hatch, I thank you for your field hearings 
that you held in Utah addressing that when that issue first 
became known across the country.
    I know, like each of you, that I think the men and women 
across this country who investigate and prosecute drug crimes 
are committed to reducing drug use and addiction, reducing the 
ancillary crimes associated with that problem. And I believe 
that thousands of Americans, men and women, get up every day 
and do their very best to deal with this insidious problem.
    Over the past 15 years, I have had the opportunity to work 
with drug counselors, county commissioners, city council 
persons, prosecutors, police chiefs, task force members, 
rehabilitation program directors, and I have been involved in 
the prosecution of nearly every illicit drug available to our 
citizens.
    As such, I have worked in the trenches, Senators, to try 
and make a difference with respect to these problems. And if 
fortunate enough to be confirmed, I hope to bring the message 
from the trenches, from State and local people, to you, and I 
hope to take your message back to State and local governments 
and elected and appointed officials across this country.
    I thank you for the opportunity to testify. I look forward 
to answering any questions the committee may have.
    [The prepared statement of Mr. Burns follows:]

 Testimony of Scott Burns, Nominee To Be Duputy Director for State and 
             Local Affairs of National Drug Control Policy

    Chairman Leahy and Biden, Ranking Member Hatch, and distinguished 
members of the Committee: I am honored to appear before you today as 
you consider my nomination for Deputy Director for State and Local 
Affairs of National Drug Control Policy. First and foremost, I want to 
express my sincere appreciation to each member of the Committee for the 
advice, encouragement, and counsel I have received during the 
nomination process.
    As a prosecuting attorney for the past fifteen years, I have seen 
firsthand the devastating effects of illicit drug use in this country. 
I have observed the smuggling, distribution, and illegal use of 
marijuana; the rise in popularity and consequent devastation of 
cocaine; the proliferation of methamphetamine laboratories and 
methamphetamine abuse that is sweeping across the country from the west 
coast to the east coast; the latest craze of GHB, Ecstasy, and other 
so-called ``club drugs;'' and the daily tragedies associated with 
prescription abuse that knows no cultural or socioeconomic boundaries. 
Like each of you, I believe that the women and men who investigate and 
prosecute drug offenses across this country are committed to reducing 
drug use and addiction, and in doing so, reducing ancillary crimes that 
are often inherent to that human condition. I also believe that, while 
we can do better, thousands of Americans are working hard every day in 
substance abuse treatment programs and prevention centers to assist our 
citizens dealing with drug use. In particular, I believe that all of us 
have made, and should make, special effort to address drug use among 
our children.
    As I have heard many of you state publicly, I do not believe that 
our common goal of reducing drug use, especially among our youth, is a 
Republican, Democratic, or an Independent problem. I believe these 
issues are a national problem. In preparing for this hearing, I have 
had the opportunity to examine some of the issues that each of you are 
dealing with in your respected states and, as such, I am struck more by 
the commonality than the differences. However, the manner and methods 
by which we address these complex issues is the subject of much debate. 
I have always believed that our first goal must be prevention, followed 
by efforts to assist those who have become addicted to illegal drugs 
through counseling and treatment. The criminal justice system should 
always be the last resort. I also believe that we must concentrate 
prevention efforts on our youth as virtually every study available 
suggests that the sooner we intervene, educate, and assist, the greater 
the likelihood for success. With the foregoing in mind, I also believe 
that the criminal justice system plays an important role in the 
national drug control policy and we must use every tool available to 
reduce the demand for illicit drugs, limit the supply, and treat those 
that are struggling every day with addiction.
    Over the past fifteen years, I have had the opportunity to work 
with the drug counselors, county commissioners, city councilpersons, 
prosecutors, police chiefs, sheriffs, alternative youth rehabilitation 
program directors, and drug task force members. I have been involved in 
the prosecution of nearly every illicit drug available to our citizens 
(methamphetamine, cocaine, LSD, heroin, marijuana, prescription fraud 
and abuse, and rave or club drugs). As such, I have worked with 
prosecutors from across the country, and if fortunate enough to be 
confirmed, I hope to bring the perspective of one ``in the trenches'' 
to the Office of National Drug Control Policy. Equally as important, I 
hope to deliver your message, and the message of the President, as 
relating to national drug control policy, to state and local officials 
across our great nation. I will work with my friend, Eugena Loggins, 
who is the District Attorney in Andalusia, Alabama, with respect to the 
horrors of methamphetamine that will soon reach her jurisdiction. I 
will work with my colleagues, Terry L. White, Chief-Deputy-in-Charge 
for the Los Angeles District Attorney's Office, Tom Sneddon, Santa 
Barbara District Attorney, and Robert Morgenthau, the District Attorney 
of New York City, to find better ways wherein the Congress, Office of 
National Drug Control Policy, and other departments and agencies can 
assist in their efforts, in the real world, to deal with the horror of 
illegal drugs and attendant crimes. I will work with Mike Rogers, an 
Assistant States Attorney for Cook County in Chicago; I will work with 
Ann Gardner, Senior Assistant Commonwealth Attorney in Roanoke, 
Virginia; I will make every effort to assist Mark Larson, Chief Deputy 
of the Prosecutor's Office in Seattle, Washington, as well as Lynette 
Reda, the Assistant D.A. in Buffalo, New York. I will strive, humbly, 
to ``speak their language'' in bridging whatever gaps there may be on 
the national, state, and local level in an effort to help all of us 
reach our common goal as relating to illicit drug use. I pledge to 
continue to work on drug issues with Michael McCann, the District 
Attorney of Milwaukee County, Wisconsin, and I will coordinate closely 
with Tom Charron, the Director of Education at the National District 
Attorney's Association, to make certain that those entrusted with 
prosecuting drug offenses do so in a professional and fair manner. I 
will also reach out to the attorney generals, sheriffs, police chiefs, 
federal law enforcement agencies, community leaders, and prevention and 
treatment professionals, on behalf of the Office of National Drug 
Control Policy, to make certain that supply reduction, treatment, and 
education are balanced and to ensure that tax dollars are being spent 
prudently.
    Mr. Chairman, I am well aware of the great strides that you and the 
distinguished members of this Committee have made over the years in 
reducing the demand for, and supply of, illegal drugs. I am also aware 
that thousands of good women and men go to work each day in an effort 
to prevent illegal use and distribution of harmful drugs, and they are 
doing a good job. If fortunate enough to be confirmed, I will dedicate 
myself to build on those successes by coordinating the national drug 
control policy with state and local officials nationwide.
    Thank you for this opportunity to testify, and I look forward to 
answering any questions the Committee may have.

    [The biographical information of Mr. Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T5793A.028
    
    [GRAPHIC] [TIFF OMITTED] T5793A.029
    
    [GRAPHIC] [TIFF OMITTED] T5793A.030
    
    [GRAPHIC] [TIFF OMITTED] T5793A.031
    
    [GRAPHIC] [TIFF OMITTED] T5793A.032
    
    [GRAPHIC] [TIFF OMITTED] T5793A.033
    
    [GRAPHIC] [TIFF OMITTED] T5793A.034
    
    [GRAPHIC] [TIFF OMITTED] T5793A.035
    
    [GRAPHIC] [TIFF OMITTED] T5793A.036
    
    [GRAPHIC] [TIFF OMITTED] T5793A.037
    
    [GRAPHIC] [TIFF OMITTED] T5793A.038
    
    [GRAPHIC] [TIFF OMITTED] T5793A.039
    
    [GRAPHIC] [TIFF OMITTED] T5793A.040
    
    [GRAPHIC] [TIFF OMITTED] T5793A.041
    
    [GRAPHIC] [TIFF OMITTED] T5793A.042
    
    [GRAPHIC] [TIFF OMITTED] T5793A.043
    
    [GRAPHIC] [TIFF OMITTED] T5793A.044
    
    [GRAPHIC] [TIFF OMITTED] T5793A.045
    
    [GRAPHIC] [TIFF OMITTED] T5793A.046
    
    [GRAPHIC] [TIFF OMITTED] T5793A.047
    
    Senator Hatch. Well, thank you, Scott. We know that you 
mean business, we know that you have been there, and we know 
you understand these problems. We also know that you understand 
the importance of helping people who have these problems. So I 
expect you to be one of the greatest people we have ever had in 
this area, and I have no doubt you will be.
    Mr. Flores, we have a lot of respect for you as well, as 
you know. We appreciate the work that you have done through the 
years, so we will turn to you at this time.

  STATEMENT OF J. ROBERT FLORES, NOMINEE TO BE ADMINISTRATOR, 
  OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Flores. Thank you very much. Mr. Chairman, members of 
the committee, it is an honor to appear before this committee 
as President Bush's nominee for the position of the 
Administrator of the Office of Juvenile Justice and Delinquency 
Prevention. I am deeply grateful for the confidence and trust 
that the President and the Attorney General have placed in me, 
and I can assure you I will work hard to justify their trust.
    Before I begin, with your indulgence I would like to 
introduce my family. They are here with me today and it is an 
important day for my family, not just for me. They have helped 
me to get where I am--my wife, Ingrid; my son, Robert; my 
daughters, Catherine and Clare; and my mother, Abigail.
    Senator Hatch. We welcome all of you here. These kids are 
pretty impressive. I am starting to worry about my 
grandchildren. [Laughter.]
    Senator Hatch. It is great to have you all here and we are 
very proud that you are with us and that your husband is being 
tapped for this important position.
    Mr. Flores. Thank you, Senator.
    As a parent, a prosecutor, and child advocate, I am sadly 
all too familiar with many of the challenges facing children 
today in their efforts to avoid temptation that if they are not 
successful in resisting will lead to broken lives.
    As you have heard from my colleagues here who are up before 
the committee today, the availability of drugs, a culture that 
urges immediate gratification, and an acceptance of violence as 
a means of resolving conflict make it increasingly difficult to 
choose right over wrong. As if this were not enough, the 
institution of the family faces continued attack, making it 
difficult for parents to care for their own children, not to 
mention keeping an eye out for those of their neighbors.
    Because of this, I believe that the challenges and work 
that belong to the Office of Juvenile Justice and Delinquency 
Prevention are among the most important and critical facing 
Government. The President's goal of leaving no child being 
must, I believe, include those children and youth that are in 
the juvenile justice system or at risk of entering that system. 
Should the Senate confirm me, I pledge to work hard on their 
behalf.
    At first glance, my career has been focused primarily on 
prosecution. So the question might be asked, why now focus on 
juvenile justice? I can't put it any more simply than the way I 
answered the question when my son asked me: because I want to 
help children.
    I believe that my background has made me especially 
sensitive to what is at stake when we don't reach children at 
any early age, protect them from violence and abuse, and assist 
their parents, their caretakers and community in building them 
up. I am aware that failure to achieve those goals is 
registered not just in statistics, but in broken lives that 
often turn to crime or are trapped in a life of violence that 
has severe repercussions.
    Because I have looked into the faces of children who have 
vented the anger in their lives through crime and violence 
because they have been neglected, abandoned, victimized 
sexually, mistreated in countless ways and made to feel as if 
they were invisible, I believe that any successful law 
enforcement effort must have as its primary goals the 
transformation of lives, the prevention of crime, together with 
the effective enforcement of law.
    These goals require that we focus not only on punishment 
for actions that are wrong, but prevention by teaching what is 
right, encouraging and modeling that behavior, and investing 
resources in their lives and those of their families.
    There are a number of programs at the Office of Juvenile 
Justice that are already underway and that I believe will help 
pave the way to transforming lives. They require financial 
resources, yes, but they also require an intimate and personal 
investment, and investment of one's time, talent, and personal 
treasure into the lives of children.
    After all, there is not a single person in this room who 
can claim to have made it all by themselves. I know that I have 
enjoyed the support, encouragement, counsel, discipline, and 
material gifts of many, from those of my parents, family, and 
friends, teachers, church leaders, and professional colleagues.
    The programs that OJJDP has that include mentoring, focus 
on community involvement, and effective intervention and 
partnering so that the difficult work of getting and staying on 
track need not happen alone must receive special attention. I 
do believe in requiring individual responsibility and personal 
hard work, but support from others as they are able must be 
part of any equation that has public safety and care of 
children as its result.
    I look forward to working with the staff at the Office of 
Juvenile Justice. I spent eight years working in the Justice 
Department with colleagues. Some of the folks at OJJDP I worked 
with then, and I look forward to doing that now. I know that 
there is no shortage of commitment on their part.
    Before concluding my statement, I want to share a personal 
story that I hope will shed some light on myperspective as it 
pertains to two important issues that the Office of Juvenile Justice 
has to be committed to address. They are disproportionate minority 
confinement and school violence.
    I grew up in a middle-class neighborhood, in a home where 
my parents thought nothing of personal sacrifice for their 
children. While we were not wealthy, my brother and I lacked 
for nothing that was truly important. My parents were 
everywhere, and as quaint as it might seem to some, they were 
always my greatest supporters and cheerleaders. One day in 
fifth grade, however, I came face to face with something that I 
had never before confronted.
    I was the only Puerto Rican kid in my school and had been 
since we moved into that community for a couple of years, but I 
encountered my first ethnic slur and that word had amazing 
power for an 11-year-old. That word, brought home from college 
by the older brother of a school friend, really made a 
difference to me.
    My schoolmate thought it might be fun to try it out on me 
and he did. I didn't understand the full ramifications of that 
word or its meaning, but I knew that the children's refrain 
that ``words can never hurt me'' was horribly wrong. In one 
fell swoop, I became embarrassed about my heritage and I did 
not have the skills to deal with it.
    I retreated into my family. I didn't want to go back to 
school. In fact, I remember wanting to see no one, but what 
happened next made all of the difference. Neighbors came 
forward to support me. They provided a caring and protective 
environment that helped my parents put the incident into 
perspective for me. Knowing I wasn't alone, I went back to 
school. As my presence here testifies, God has blessed me and I 
have enjoyed a great deal of success and the support of many 
people. While that episode has past, I have never forgotten it.
    I share this with you because I want you to have confidence 
that I will be sensitive to these issues. Racism, bigotry, and 
bullying are not limited to the playground. If it influences 
sentencing confinement decisions, makes true reentry into the 
community impossible, threatens the creation of a safe learning 
environment, or facilitates or contributes to domestic 
violence, it will be a priority for me. Such influences have no 
place in any system of justice, and it offends me deeply not 
just because of my heritage, but because it is offensive to any 
prosecutor who has spent his career doing justice.
    I want to thank the committee for the opportunity to appear 
today. I want to thank Senator Hatch and Senator Grassley for 
their support, and for Senator Warner's statement this morning 
and for Senator Allen's as well. I look forward to taking any 
questions that you might have.
    Thank you very much.
    [The prepared statement of Mr. Flores follows:]

   Statement of J. Robert Flores, Nominee To Be Administrator of the 
         Office of Juvenile Justice and Delinquency Prevention

    Mr. Chairman and Members of the Committee: It is an honor to appear 
before this Committee as President Bush's nominee for the position of 
Administrator of the Office of Juvenile Justice and Delinquency 
Prevention. I am deeply grateful for the confidence and trust that the 
President and the Attorney General have placed in me and I will work 
hard to justify their trust.
    As a parent, prosecutor, and child advocate, I am sadly, all too 
familiar with many of the challenges facing today's children and youth 
to avoid temptations that will lead to broken lives. The easy 
availability of drugs and alcohol, a culture that urges immediate 
gratification, and an acceptance of violence as a means of resolving 
conflict make it increasingly difficult to choose the right over wrong. 
As if this were not enough, the institution of the family faces 
continued attack making it difficult for parents to care for their own 
children, not to mention keeping an eye out for those of their 
neighbors. Because of this, I believe that the challenges and work that 
belong to OJJDP are among the most important and critical facing 
government. The President's Goal of leaving no child behind, must, I 
believe, also include those children and youth that are in the juvenile 
justice system or at risk of entering that system. Should the Senate 
confirm me, I pledge to work hard on their behalf.
    At first glance, my career has been one focused primarily on 
prosecution. So the question might be asked, why now a focus on 
juvenile justice? Simply put, because I want to help children. I 
believe that my background has made me especially sensitive to what is 
at stake when we don't reach children at an early age, protect them 
from violence and abuse, and assist their parents, caretakers, and 
community in building them up. I am aware that failure to achieve those 
goals is registered not only in statistics, but in broken lives that 
often turn to crime or are trapped in a life of violence that has 
severe repercussions. Because I have seen the faces of children who 
have the anger in their lives through crime and violence because they 
have been neglected and abandoned, victimized sexually, mistreated in 
countless ways, and made to feel as if they were all but invisible, I 
believe that any successful law enforcement effort must have as its 
primary goals, the transformation of lives, the prevention of crime, 
together with the effective enforcement of law. And these goals require 
that we focus not only on punishment for actions that are wrong, but 
prevention by teaching what is right, encouraging and modeling that 
behavior, and investing resources in their lives and those of their 
families.
    There are a number of programs and efforts already underway that I 
believe will pave the way to transforming lives. Yes, they require 
financial resources but they also require an intimate and personal 
investment. An investment of one's time, talent, and personal treasure 
into the life of children. After all, there is not a single person in 
this room that can claim to have made it all by themselves. I know that 
I have enjoyed the support, encouragement, counsel, discipline, and 
material gifts of many, from those of my parents and family to friends, 
teachers, church leaders, and professional colleagues. Programs that 
include mentoring, community involvement, and effective intervention 
and partnering so that the difficult work of getting or staying on 
track need not happen alone must receive special attention. I believe 
in requiring individual responsibility and personal hard work, but 
support from others as they are able must be part of any equation that 
has public safety and care for children as its result.
    As a career official in the Justice Department, I had the 
opportunity to work with dedicated and talented colleagues, not only in 
the Criminal Division, but at OJJDP as well. I look forward with great 
expectation to working with the staff at OJJDP, some of whom I have had 
an opportunity to work with in the past, and all of whom I know are 
personally committed to improving on the work of the past.
    Before concluding my statement, I want to share a personal story 
that I hope will shed some light on my perspective as it pertains to 
two important issues that the Office of Juvenile Justice and 
Delinquency Prevention must be committed to addressing, they are 
disproportionate minority confinement and school violence.
    I grew up in a middle class neighborhood, in a home where my 
parents thought nothing of personal sacrifice for their children. While 
we were not wealthy, my brother and I lacked for nothing that was truly 
important. My parents were everywhere, and as quaint as it might seem 
to some, were always my greatest supporters and cheerleaders. One day 
in fifth grade, however, I came face to face with something that I had 
never before confronted even though I was the only Puerto Rican kid in 
my school and had been since we moved into that community. I 
encountered my first ethnic slur and that word had amazing power for an 
11 year old. This word was brought home from college by the older 
brother of a school friend. My schoolmate thought it might be fun to 
try it out on me and he did. I didn't fully understand the word or its 
meaning, but I knew then that the children's refrain that ``word's can 
never hurt me,'' was horribly wrong. In one fell swoop, I became 
embarrassed by my heritage and I did not have the skills to deal with 
it. I retreated into my family. I did not want to go back to school. In 
fact, I remember wanting to see or hear from no one. What happened next 
made all the difference in the world. Neighbors came forward to support 
me. They provided a caring and protective environment, that helped in 
allowing my parents to put the incident into perspective for me. 
Knowing I was not alone, I went back to school. And as my presence here 
testifies, God has indeed blessed me and I have enjoyed a great deal of 
success and the support of many. While that episode passed, I have 
never forgotten.
    I share this with you because I want you to have confidence that I 
will be sensitive to these issues. Racism, bigotry, bullying, are not 
limited to the playground. If it influences sentencing or confinement 
decisions, makes true re-entry into the community impossible, threatens 
the creationof a safe learning environment, or facilitates or 
contributes to domestic violence it will be a priority for me. Such 
influences have no place in any justice system and offends me deeply 
not only because of my heritage but because it is offensive to any 
prosecutor who has devoted his career to doing justice.
    If confirmed, the opportunity to serve as Administrator holds great 
excitement for me as I believe that it is always better to prevent 
crime than to punish it. As a prosecutor, I sometimes got the feeling 
that I was playing that arcade game, Wack-a-mole, where you keep 
pounding the mole every time he pops up, yet you know you can't get 
them all and that they will continue to pop up. Worse, the prosecutor, 
perhaps better than anyone else, knows that you can't fully restore 
what has been taken in the crime, the innocence of a victim, his honor, 
the feeling of safety, or the time lost with loved ones. I see this as 
an opportunity to focus on the problem at a time when much and many can 
be saved.
    Finally, I believe that the goal of preventing juvenile delinquency 
and assuring that those in the system find justice is everyone's 
concern. It is not a partisan issue because it touches something too 
precious to us all, our Nation's children. I look forward to working 
with this Committee if confirmed. Thank you, Mr. Chairman for the 
opportunity to appear before you today.

    [The biographical information of Mr. Flores follows:]

    [GRAPHIC] [TIFF OMITTED] T5793A.048
    
    [GRAPHIC] [TIFF OMITTED] T5793A.049
    
    [GRAPHIC] [TIFF OMITTED] T5793A.050
    
    [GRAPHIC] [TIFF OMITTED] T5793A.051
    
    [GRAPHIC] [TIFF OMITTED] T5793A.052
    
    [GRAPHIC] [TIFF OMITTED] T5793A.053
    
    [GRAPHIC] [TIFF OMITTED] T5793A.054
    
    [GRAPHIC] [TIFF OMITTED] T5793A.055
    
    [GRAPHIC] [TIFF OMITTED] T5793A.056
    
    [GRAPHIC] [TIFF OMITTED] T5793A.057
    
    [GRAPHIC] [TIFF OMITTED] T5793A.058
    
    [GRAPHIC] [TIFF OMITTED] T5793A.059
    
    [GRAPHIC] [TIFF OMITTED] T5793A.060
    
    [GRAPHIC] [TIFF OMITTED] T5793A.061
    
    [GRAPHIC] [TIFF OMITTED] T5793A.062
    
    [GRAPHIC] [TIFF OMITTED] T5793A.063
    
    [GRAPHIC] [TIFF OMITTED] T5793A.064
    
    [GRAPHIC] [TIFF OMITTED] T5793A.065
    
    [GRAPHIC] [TIFF OMITTED] T5793A.066
    
    [GRAPHIC] [TIFF OMITTED] T5793A.067
    
    [GRAPHIC] [TIFF OMITTED] T5793A.068
    
    [GRAPHIC] [TIFF OMITTED] T5793A.069
    
    [GRAPHIC] [TIFF OMITTED] T5793A.070
    
    [GRAPHIC] [TIFF OMITTED] T5793A.071
    
    [GRAPHIC] [TIFF OMITTED] T5793A.072
    
    Senator Hatch. Thank you, Mr. Flores. We are honored to 
have all of you.
    Ms. Solberg, you come highly recommended. I think the two 
Senators and Congressman Levin really said it all about you and 
we are really pleased that you are willing to come here and 
work in this area and help us.
    Dr. Crane, we know all about you. We think you are great.
    Of course, I know Scott Burns very, very well. He is one of 
my dearest friends, he and his wife Alice, and I just know what 
you have done out there in Utah.
    Mr. Flores, we have watched you around here for a long 
time, so we have a lot of respect for you.
    Senator Biden [presiding]. Why don't you go ahead and start 
questioning? I apologize for having to be absent.
    Seantor Hatch. Well, let me just ask you a question, Scott. 
You know all too well how destructive methamphetamine has been 
to our home State of Utah and to other areas of the country. 
You have prosecuted drug traffickers and manufacturers. You 
have worked hand in hand with Federal, State, and local law 
enforcement officials to make communities safe and more secure. 
I am very proud of the work you have done in Utah and I am 
convinced that you will do a great job at ONDCP.
    I understand that in 1987, you formed the Southern Utah 
Task Force, Utah's first narcotics task force. This task force 
brought police chiefs, sheriffs, Highway Patrol, DEA, FBI and 
INS together specifically to address the issue of narcotics. 
Today, the task force, known as the Iron-Garfield Narcotics 
Task Force, continues to combat drug manufacturing and 
trafficking in southern Utah. I also understand that this task 
force was used as a model for other successful narcotics task 
forces that are operating all over Utah, so I applaud you for 
your foresight and your ingenuity in this.
    How will you apply the knowledge that you have gained in 
these experiences in Utah from operating this task force to 
your new role as head of State and local affairs?
    Mr. Burns. Senator, thank you for your kind comments. I 
would like to take credit for all of that, but it was people 
like Bob Flowers, behind me, who was with the State Police.
    What I walked into was sheriffs that hated police chiefs, 
police chiefs that thought the DEA should be in Washington, and 
FBI agents who knew more than all of us, and trying to combat 
in a rural setting cartels in Colombia and Mexico that were 
highly sophisticated, got along well, and frankly were beating 
us up.
    I think the key in our jurisdiction, and maybe that can be 
applied across the country, is simply understanding what each 
of the players needs in order to get along and to work together 
in the best interests of our citizens, whether it is a sheriff 
that is up for election that needs a couple more lines in a 
press release, whether it is a police chief that needs a letter 
to the mayor, whether it is a DEA agent that needs a pat on the 
back.
    I think people are people everywhere on a State basis, on a 
local basis, on a national Federal basis, and I think it is 
people skills and trying to educate everybody that we all need 
to play well together, and that was the basis for our success.
    Senator Hatch. Thank you. As Deputy Director for State and 
Local Affairs, you will be working closely with Federal, State 
and local law enforcement officials who work together as part 
of the High-Intensity Drug Trafficking Area program, better 
known as HIDTA, to combat drug trafficking, among other things.
    This program has grown dramatically over the past few 
years, and while it has facilitated the formation of very 
successful cooperative efforts, HIDTA has also been criticized 
for becoming too bureaucratic. The success of each HIDTA is to 
a large extent dependent upon the ability of various State, 
Federal and local law enforcement officials from various States 
to get along and to trust one another.
    You have seen how the Rocky mountain HIDTA operates and you 
have worked with all of its officers. So my question is, based 
on your experience, what do you think can be done to ensure 
that HIDTAs don't become consumed with bureaucratic 
machinations and how will you personally prevent differences 
from obstructing the focus of individual HIDTAs?
    Mr. Burns. Well, if fortunate enough to be confirmed, 
Senator, I think I would propose looking at each of the HIDTAs 
top to bottom. I have always believed that the most efficacious 
law enforcement is getting the money where it will do the best, 
to officers on the street, to the real-world people dealing 
with this issue day in and day out.
    I would hope to look at each of those HIDTAs on an 
individual basis and determine whether or not they are turning 
into bureaucracies or doing what they were intended to do, and 
that is bring together a conjoined effort of State and local 
and Federal officials to deal with this problem.
    Senator Hatch. Thank you. Thank you, Mr. Chairman.
    Senator Biden. Thank you very much.
    I have a number of questions for each of you. I will take a 
second round to do that, but let me start with you, Ms. 
Solberg. I should state at the outset that having been the 
fellow who authored the so-called drug czar legislation, when I 
got here 100 years ago in 1972 as a 29-year-old kid, I swore 
that I was not going to commit the sin of all senior Senators, 
and that is become enamored with my own legislation, get to the 
point where something that I worked on very, very hard to get 
passed--a Democratic President didn't want any part in hearing 
about national drug director's idea for the same reason, Scott, 
that you indicated.
    I thought you phrased it very well. Sheriffs didn't like 
local chiefs. The local chiefs thought DEA should stay in 
Washington, and DEA at that time was being gobbled up by the 
FBI, and so on and so forth. If you think that was a problem, 
it was a real problem getting a total of 36 Government agencies 
to agree that there should be one person in charge.
    So I apologize ahead of time and acknowledge ahead of time 
that I have a bit of a parental attitude toward this office. I 
think it has great potential. I think it has occasionally risen 
to the task and sometimes has not.
    Ms. Solberg, there are two pieces to it when I wrote it 
that were envisioned at the time. It wasn't merely enforcement. 
It was that there be a significant portion of it relating to 
prevention and treatment, because we had up to that time not 
very much looked at it from a Federal level as either a Federal 
responsibility or in any holistic way, that there is a 
combination.
    Scott indicated in his--excuse me for calling you 
``Scott.''
    Mr. Burns. No. I like that.
    Senator Biden. Those introducing him indicate that he has 
used--I believe the commissioner indicated he has used drug 
courts and other vehicles beyond merely the traditional law 
enforcement tools. I say proudly that was in the so-called 
Biden crime bill that we put those drug courts in, greatly 
resisted. Now, we are approaching over 1,000 of them 
nationwide, 688 or thereabouts, and I find them to be one of 
the single best programs in my State; now, juvenile drug courts 
as well, over 450 on the drawing board.
    So, again, the notion of not only identifying what we 
should be focusing on and having a coordinated effort so that 
no longer would the Coast Guard purge their computers of 
suspects so that the Customs people couldn't get a hold of them 
and get credit for the collars--I know that sounds bizarre now, 
but that what was happening.
    We are now beginning in earnest to turn toward prevention. 
For the longest time here, we had the debate that prevention 
doesn't work under any circumstances, and it is an 
understandable concern people have. I don't know any of the 
people sitting in the audience--I bet there is not a single 
person out there who is an adult who can't either name a son, 
daughter, husband, wife, cousin, in-law, neighbor or fellow 
worker who has a son, daughter, husband, wife who has not 
encountered drugs and has not in many cases encountered the 
need for help.
    We have nationwide only 11.4 percent of the 12- to 17-year-
olds who need treatment have received it. Nationwide, those 
between the ages of 18 and 25, only 8.6 percent who need 
treatment have received it, in part because it is very 
expensive. This is very expensive stuff, and we have learned a 
lot that says these 5-day, 1-week, 30-day treatment facilities 
are not of much value, particularly when we are talking about 
heroin and cocaine and other drugs.
    So I am using, I realize, most of my five minutes here in 
an opening because I am going to come back and question you 
all, but I want to talk to you all about the relationship 
between interdiction and prevention and the need for 
coordination.
    Mr. Flores, on a separate but not unrelated area, you are 
about to head up what I again, along with Senator Hatch--I 
think he and I have probably worked longer than any two people 
in the Senate consistently on this. My mother, God love her, is 
85 years old and she says a phrase from her generation, I 
think. She says a woman's ultimate revenge is living long and 
thin. That is my 85-year-old mother whosays that.
    Well, I think a public official's ultimate revenge is 
remaining in office long. Well, that is a qualification that 
all three of us have met, but particularly the Senator from 
Utah and I, and we have worked very hard in the area of 
juvenile justice. I have a number of questions for you about 
how you think it should be functioning differently, if it 
should be, than it is now.
    With that, why don't I yield now to Senator Grassley, and 
having forewarned you all I will come back to talk to you about 
those subjects.
    Senator Grassley. Mr. Flores, congratulations. I enjoyed 
working with you on child prosecution legislation that we had 
up. Years ago, when you were a much younger lawyer, it is my 
understanding you were involved in the coalition of people that 
helped us federalize the Ferber Act.
    Mr. Flores. Thank you very much, Senator, for your work in 
this area.
    Senator Grassley. Ms. Solberg, do you currently hold a 
security clearance?
    Ms. Solberg. I do not know that. I have completed my FBI 
work and I believe, if I am confirmed, that that will be 
forthcoming.
    Senator Grassley. Okay, so you don't have one now. Do you 
know if there is one in the works for you to get a security 
clearance?
    Ms. Solberg. I don't know that, Senator.
    Senator Grassley. That is okay. Now, you have been 
nominated to fill the post of deputy in a Cabinet-level agency. 
This would be similar to Deputy Secretary of Agriculture or 
Deputy Attorney General.
    When you interviewed for the post of deputy director, did 
anyone at that time indicate to you that the post involved 
these over-arching responsibilities?
    Ms. Solberg. No, they did not.
    Senator Grassley. At the time of your nomination or at any 
point thereafter, did you indicate that for personal reasons 
you intended to spend only part of the work week in Washington? 
And while answering that question, would you please detail what 
the administration agreed to and specifics about your work 
schedule and the location of your duties?
    Ms. Solberg. I agreed when I was asked to accept this 
nomination to put in a 40-hour-plus week, in other words full-
time, in Washington. I asked for an alternative work schedule, 
when necessary, because I am an only child of parents who are 
86 and 90. I felt that their care was prevention at its very 
best, and my family is vital to me.
    I asked for that alternative work schedule, saying that, 
first of all, I would put a minimum of 40 hours in Washington, 
probably more, and also that I was totally wired at home with 
fax, computer, and everything necessary. And although I might 
be in a different area, I would be one hundred percent 
available on those days when I would be required to be in 
Michigan to care for my family.
    Senator Grassley. And the administration agreed to that?
    Ms. Solberg. I was nominated, Senator.
    Senator Grassley. Mr. Chairman, I have no further 
questions.
    Senator Biden. Thank you very much.
    Senator Hatch?
    Senator Hatch. I am going to rely on you, Mr. Chairman, to 
ask the questions. I will just be happy to have you take over.
    Let me just say this: I have been on this committee ever 
since I have been in Congress and there is nobody in the whole 
Congress who has done more in these areas than Senator Biden. I 
don't mean to embarrass him, but I----
    Senator Grassley. He is difficult to live with. You are 
making it more difficult. [Laughter.]
    Senator Hatch. Well, I didn't comment on that. I agree with 
that.
    Senator Biden. Well, thank you very much, Senator.
    Senator Hatch. But I have to say that he does work very 
hard in this area. He himself has had experience before he came 
to the Senate in these areas and he takes it very seriously. I 
think he is going to, as I know I will, appreciate the work 
that the four of you will be doing. But I would just as soon 
have Senator Biden ask the questions.
    Senator Biden. Thank you very much.
    Ms. Solberg, let me begin with you. During your tenure as 
head of the Troy coalition, you have had great success in 
reducing the use among kids in your community of marijuana. It 
seems to me that if we want to achieve the President's goal of 
reducing drug use by 25 percent over the next 5 years, we have 
to replicate the kinds of things you have done in your 
community throughout the country.
    What kinds of programs would you like to see developed 
across this country to prevent drug use in the first place? Do 
you have any ideas along those lines?
    Ms. Solberg. Well, Senator, I believe that substance abuse 
starts in the local community and that the answer lies first 
and foremost in the community. It is by conducting multiple 
strategies over every sector of the community that we change 
behavior.
    I have always believed that you can't change youth behavior 
until you first address adult behavior, and sooften prevention 
programs have only targeted young people. We need to change 
communities, we need to change attitudes, we need to change behavior.
    Senator Biden. How do you do that, Mary Ann? Give me an 
example.
    Since I am chairman of the Foreign Relations Committee, I 
always joke that the people that drive me the craziest are the 
State Department nominees because they speak State Department-
eze, which means they don't speak English, they don't speak the 
American language.
    One of the things I would like to know, if you can, and you 
may not be able to--these are tough questions--if you can be 
specific, give me anecdotal kinds of evidence as to how do 
you--for example, I fully concur that you have to get adults 
involved. We always think we just start with the kids.
    When I do the DARE programs, I make sure I have all the 
parents show up of the students because just educating the 
parents on things to look for--I mean, they see a pacifier on 
the kid's end table when the kid is 13 years old and they 
should realize that kid is using Ecstasy. They wonder what the 
pacifier and the little lanyard around the neck is all about, 
so we don't educate parents very well.
    We went through a period where when you were working on the 
reduction of marijuana, you would have parents of my 
generation, the so-called baby-boom generation, many of whom 
experimented with marijuana, who would say, well, at least my 
kid is not using cocaine. It was not okay, but it was, you 
know, gee, I am thankful that that is the case, or at least 
they are just drinking and they are not using drugs.
    In fact, as you well know, the marijuana that--I used to 
say that the marijuana that we have been dealing with the last 
10 years--it is like it ain't your father's Oldsmobile; this is 
a very, very different marijuana. It is over 10 times as 
potent. Its effect on brain cells and long-term impacts are 
significantly greater than any marijuana that somebody smoked 
at Woodstock in the late 1960s.
    So I understand generically that you have got to get 
parents or adults more informed, but what do you mean by 
getting them involved? Give me an example.
    Ms. Solberg. Well, I will give you a great example of 
parenting. It is very difficult to educate parents. School 
districts have training and only the best parents show up, so 
we use multiple strategies. We go into the workplace and make 
sure that there are paycheck stuffers that give the signs and 
symptoms of adolescent drug abuse. We make sure that there are 
posters and brown-bag training in the workplace.
    We work with the pharmacies so that when a senior citizen 
picks up a prescription, there is a statement on how to be a 
good grandparent, how to protect against drug abuse. We work 
with the physicians. When a parent comes for a pre-school 
physical, the physician says now is the time to start talking 
with your children about alcohol, now is the time to watch for 
the signs and symptoms of adolescent abuse.
    So we work across every sector to actually change the 
dynamics, to change the way business is done. It is very, very 
effective because we are changing the norm in the community 
from one of abuse to one of prevention.
    Senator Biden. Now, you and I both know how hard it is to 
change the norm. I authored a bill called the Violence Against 
Women Act, and because my State is small I was able to do what 
legislators aren't supposed to do. I was able to have a hands-
on experience in molding the use of the monies from that Act in 
my home State.
    I was able to get, for example, all the emergency rooms in 
the State--there are not that many in a small State like mine; 
it is the size of a congressional district--get them together 
and get them to agree, with monies we provided, to train intake 
physicians in emergency rooms to recognize domestic abuse and 
be willing to file the reports. I found that when you are able 
to talk to all the doctors and get them all in one room, you 
can do something.
    One of the reasons I am asking these questions is you are 
sort of head of the field in your home county. Doctors doing 
the physical before school seem to me to be an incredibly 
opportune moment to educate the parent and the child, and even 
test on occasion at that moment.
    But the fact of the matter is most doctors don't know much 
about this. Most doctors, in my experience, don't know much 
about it. They don't want to know about it, they don't want to 
pay attention to it. So how do you on a national basis, in your 
new capacity--for example, let's just focus on doctors for a 
minute. How would you go about trying to, in a sense, educate 
the medical profession to not only what to look for, but their 
responsibility, their civic responsibility in participating in 
this?
    Ms. Solberg. I will walk you through what we did in a small 
community. I think it translates beautifully. We began by 
educating, by talking one on one with physicians. We ended by 
having a family practice physician as the president of one of 
our coalitions.
    We then went on to the county level and involved the 
Oakland County Medical Society and educated and trained. They 
came in and weighed in on public policy. What is harmful for 
our young people?
    We then went to the State level to work with the medical 
society, and we involved at each step of the way physicians 
through education, through practical examples. And because we 
are results-oriented, because we are data-driven,we showed them 
the numbers, we showed them what we had achieved, and we clearly 
illustrated their role in this process.
    Senator Biden. Now, would you to the AMA, for example, in 
your new capacity? Would that be something you would have in 
mind?
    Ms. Solberg. I would love to be able to. I have not taken 
the position yet and I have not heard what Director Walters has 
in store, but it is absolutely one of the things that I think 
would be very, very effective to bring physicians nationwide 
into the prevention field.
    Senator Biden. Well, this was not a set-up question, but 
last week I introduced a bill to train doctors and other health 
care professionals in terms of continuing medical education. 
You know how we lawyers and doctors go back and we have 
continuing education requirements, at least in most States, I 
believe, if not all, and continue to be updated on the newest 
changes. As Sander may know, we do that as lawyers. I would 
like you, when you are confirmed, to take a look at that for 
me, if you will. It was endorsed by your soon-to-be boss, Mr. 
Walters.
    Let me conclude by just saying to you that I think that 
some of the criticism of your nomination is that you have not 
had national experience, that you have not run a large agency, 
that you are not a nationally-known name, et cetera. But I 
think you are a perfect complement to a man whose background 
has been on the enforcement side and whose interest has been on 
the enforcement side and on the interdiction side of the 
equation.
    I think you provide a genuine balance and I think if 
anything has been missing--and we have had great people in that 
office in all administrations, but if anything has been 
missing, it has been the direct connect, the practical hands-on 
connection between the localities and how they implement these 
programs and initiatives and what they generate spontaneously 
and the national strategy.
    So I look forward to you being in that position. But 
understand--I know you do--that we take it very seriously. 
Accountability is a matter of importance to us, and one of the 
things I hope you will do is as you, in a sense, experiment at 
a national level with your success at the local level--you will 
find many of them will not work nationally. Every community is 
different and it is much harder to do it nationally than it is 
locally.
    But I hope you will be candid with us when we call your 
before this committee and acknowledge frankly what works and 
what doesn't work. The only thing we care about is not that 
everything you try works, but that everything that doesn't work 
you are honest enough to tell us.
    As you well know, public support for the initiatives 
relating particularly to treatment and prevention are hard-
fought battles, as Congressman Levin can tell you, because they 
are the least popular. The first thing is arrest them and hang 
them. We usually get money for that, we usually get support for 
that.
    The main reason why people are skeptical about our 
treatment program and skeptical about our prevention programs 
occasionally is that they don't think they work. They do work, 
but they don't think they work. For the longest time, for 
example, when we spent a lot of money in this prevention field, 
we worked with educators.
    What we did was we had every school district in the country 
at the beginning of a school year hand out pamphlets, which was 
about as useful an exercise of money as us carrying coals to 
Newcastle. I mean, it was a waste of money, in my view. It was 
a typical bureaucratic response to a national program.
    So we are looking for some innovation from you. We don't 
expect you to reinvent the wheel, but the reason why people are 
prepared to take a chance on a local woman who did a great job 
is because of that very thing, a local woman did a great job. 
And we expect that you will not be afraid to attempt to 
innovate. Don't be intimidated in this new job.
    Your daughter is shaking her head. Don't worry, mom is 
never intimidated. [Laughter.]
    Senator Biden. But don't be intimidated by this.
    Senator Hatch. Mr. Chairman, I have to necessarily leave.
    Senator Biden. Please proceed.
    Senator Hatch. No. I just want to apologize for having to 
leave, but I have every confidence in all of you.
    I would just like to put in the record, if I could, Mr. 
Chairman--Speaker Hastert's Task Force for a Drug-Free America 
has written a letter in support of these nominees and I would 
like that to be included in the record.
    Senator Biden. It will be part of the record.
    Also, Senator Grassley asked that his opening statement be 
put in the record.
    Senator Hatch. I also want to thank you, Mr. Chairman, for 
holding these hearings and for moving these nominees along. We 
need to get these positions filled and if we can work to get 
them on the agenda and get them out, I would sure appreciate 
it.
    Senator Biden. Thank you very much. Thank you for the nice 
compliments.
    I only have a few more minutes with you all, if you don't 
mind.
    Dr. Crane, you have had a long service to your country, and 
also an interesting and varied background coming into this job. 
I would like to talk with you about Colombia for a minute.
    Mr. Crane. Yes, sir.
    Mr. Biden. I will state at the outset I am a close personal 
friend of President Pastrana, whom I speak to literally 
regularly. He calls me at home because of my interest in his 
country and my interest in the drug problem and Plan Colombia. 
He is in a bit of a bind right now. Things are pretty tough 
down there.
    As the FARC's violent attacks have increased and he has 
ended the peace process, this country which we care about, the 
oldest democracy in the hemisphere, not only because it is a 
source of nearly all the cocaine in this country and the 
majority of the heroin on the East Coast, including incredibly 
pure heroin that is literally killing kids in my home State of 
Delaware, but also because Colombia is an ally and I can't 
picture a secure Latin America and South America with this big 
country essentially at the head of it becoming a narco-state--I 
just can't envision how this hemisphere works very well that 
being the case, and I think that is the alternative we are 
facing here, a narco-state. As you know, the FARC, as well as 
the paramilitaries, have engaged in the trade. They have found 
it very lucrative, as well, and for their own political 
purposes.
    Now, in the position to which you have been nominated, you 
will be called upon to advise the drug czar on how we should 
proceed in Colombia. First of all, are you prepared to tell us 
what your views are on Plan Colombia, as it is now in place? 
Have you had a chance to become familiar with it? Do you have a 
notion of anything about it?
    Mr. Crane. As you might recall--I think if I am confirmed I 
would be very honored to continue to advise you. I know in 1998 
I testified before you before on the Western Hemisphere Drug 
Elimination Act.
    It is very true that Colombia is a state in deep peril, 
financed primarily by drugs, to many terrorists. So it is a 
very serious situation. I have made many trips to Colombia, 
have done lots of analysis and attempted to look at how could 
we make these plans work as best as possible. So I have made 
recommendations to Admiral Loy and others about complementary 
programs to ensure that the current Plan Colombia will work as 
planned.
    So I believe I have a wealth of experience. Ambassador 
Patterson wants me to come down as soon as I am confirmed, if I 
am confirmed, to begin to meet with them right away. The issues 
there are very complex, but what I believe has to be done is we 
have to do more than just try to eradicate the coca plants. As 
you know, in the last year there has been increasing 
eradication.
    We have to get to a point there where we can actually 
severely damage that business. If we do just a little bit at a 
time, it probably won't work. So I will be an advocate of 
making sure that that plan works as best as envisioned.
    Senator Biden. Now, you are talking like a State Department 
guy again. Tell me what you mean specifically, not generically, 
that we have to do our best.
    Mr. Crane. Well, I think the first thing that we 
recommended was that you have to get in and interdict certain 
aspects of it because what has happened now----
    Senator Biden. What aspects?
    Mr. Crane. Primarily the land transportation. If you look 
at the current base prices in Colombia, they have risen with 
the about 40-percent eradication that occurred this last year. 
Now, not all the equipment is there. If you do that, if the 
prices rise a lot, then this encourages them to plant more.
    So my personal observation this year is there is a very 
large amount of new cultivation, attempting to counter Plan 
Colombia. Now, if we can do a better job, for example, 
interdicting----
    Senator Biden. Does price rise mean we are having success 
in limiting supply?
    Mr. Crane. It does, but the system then is a pernicious 
system and it attempts to counter you by, if the price goes up, 
then whoever you don't eradicate makes more money on his crop.
    Two years ago, I worked with UN officials and we do get 
current prices out of the areas in Colombia now. I just got 
recent data. My team has been in Colombia. Two weeks ago, they 
were in there for two weeks looking at the research aspects of 
this.
    So one of the aspects that we argued should be done is if 
we could interdict the cocaine base coming out of these 
agricultural areas and drive the price down, this would be 
helpful.
    Senator Biden. How would interdicting drive the price down? 
I am not arguing with you about the need to interdict.
    Mr. Crane. What happens is the base price goes up atthe 
cocaine processing lab, which for many of them are in the cities, and 
the base price goes down at the farm gate. If you could drive the base 
price down to levels below, say, $600, $550--it is right now about 
$1,050--then there becomes a lot less profit in the commodity. So that 
is one aspect.
    But there is a second aspect of any police program, and I 
know the interdiction coordinator has put together such a 
concept. You also want to drive up their costs for precursor 
chemicals, say gasoline and potassium permangenate and other 
chemicals like that. In addition to that, we are looking at an 
application to use the assets we already have down there for 
eradication more effectively. So all of these are ways that I 
think could improve the chance for Plan Colombia to deliver the 
desired result.
    Senator Biden. What about the notion of crop substitution 
or moving folks out of the business into other businesses? Most 
people argue that a significant number of the growers are 
ordinary peasants involved in agriculture who are looking for a 
crop in which they can make a living. They are not the ones who 
make the big numbers.
    Now, granted, these large jungles that are being cleared 
and large numbers of hectares being planted are more as a 
consequence of an organized and cartel-driven kind of 
operation. So it is one thing to eradicate those, and that is 
why we provided the helicopters and that is why we didthe 
training of the Colombian military.
    But what about the folks outside of that valley, outside of 
that region? What is the administration, if you know, or what 
are you recommending, if you are, as to how to move people into 
a different line of work, in effect? You talk crop 
substitution. Is that a rational approach, does it hold any 
promise, or is it basically a non-starter from your 
perspective?
    Mr. Crane. From my research perspective, it is possible to 
do that, but again it is very important that you not have 
cocaine base and leaf at extremely high prices where no other 
crops have any chance at all. But there is a second aspect; we 
have security problems in many of these areas, and so besides 
providing for economic assistance, you also have to provide for 
the man's basic right to life and not having a barrel of a gun 
pointed at him telling him to grow coca.
    So we have a very difficult problem in Colombia. As you 
know, there were many growers packs that were into self-
eradicating. So I would say that if I am confirmed, one of the 
things we are going to look at it is did they actually do that, 
and so I would have to get back to you, I think, and look and 
see how those things worked out because right now that will 
happen this summer.
    Senator Biden. What is the greatest weakness of Plan 
Colombia right now as you see it?
    Mr. Crane. In my opinion, probably what I call 
incrementalism. We did just a little bit each time. So if you 
just do a little bit, get a couple planes every year, I don't 
think that will work. I think what we will have is a very large 
coca agriculture and you will be able to do that.
    So in my view, and I have advocated this for several years, 
we need to get on with the program and force a radical--not 
force a radical, but cause a radical shift in the coca economy. 
So if we went along and just did a little bit each year, I 
don't think that will work, so I wouldn't be an advocate of 
that.
    Senator Biden. As you probably know, the provision of U.S. 
intelligence for air interdiction to the governments of Peru 
and Colombia have been suspended since the fatal accident last 
spring in which a plane carrying U.S. missionaries was 
erroneously shot down after being suspected of carrying drugs. 
As I understand it, the administration is still reviewing 
whether the program should be resumed.
    Do you have any views on whether the program should be 
resumed?
    Mr. Crane. If I may, I would like to put in context the 
conditions under which you do these types of operations. If you 
look at the history, in 1982 1,100 airplanes landed in Florida 
with cocaine on them. With military advice, the Customs 
Service, and so on, we have been able to stop most of the air 
trafficking, and the air trafficking is a major threat because 
it is the least costly way to move illegal drugs 
surreptitiously because of the issues of security.
    If you look at the current air situation, which I have just 
done, pretty much most of the drugs are not moved across the 
Caribbean anymore by air; it is mostly surface. If you look in 
Colombia, there are certainly a lot of questions about we have 
deployed large-sensor systems. So from that point of view, it 
is a very important program, if they attempt to use aircraft 
widely, to have the capability to stop them.
    Now, does that mean that you only have to have a shoot-down 
law? The answer is no. The United States did not do that over 
the Caribbean. However, it requires a large amount of resources 
to be applied if we were to go that route. So in my opinion, in 
the remote areas of the Amazon, if we have large narco or 
terrorist aircraft activity, it may be necessary to take a very 
serious look at reinstituting that program as soon as possible.
    Senator Biden. I happen to agree with you.
    Scott, let me turn to you if I may. You know the numbers, 
but for the record let me just repeat a few statistics. As I 
said earlier, kids in rural areas are more likely than kids in 
large urban areas to use certain kindsof drugs, including 
methamphetamine and cocaine.
    A recent CASA study showed that 8th-graders in rural 
America are 104 percent more likely than those living in urban 
centers to use amphetamines generally, including 
methamphetamine. Eighty-three percent are more likely to use 
crack cocaine, 50 percent are more likely to use powdered 
cocaine, and 34 percent are more likely to smoke marijuana. The 
study goes on to say rural communities are woefully unprepared 
to provide treatment to the growing number of people becoming 
addicted.
    This will come on your watch, Mary Ann: In 1993--this is 
the last statistic I am aware of--55 percent of the 3,075 
counties in the United States had no practicing psychologists, 
psychiatrists, or social workers. And all these counties, every 
one, was a rural county.
    Now, I come from a State that although it is in the midst 
of the North Atlantic States, we found that with the drug 
cartels operating very successfully in Philadelphia, because of 
I-95, the major north-south freeway, and because of the Port of 
Philadelphia and easy transit from New York and the Port of New 
York, as we put pressure on drug cartels and organized units of 
drug crime in Philadelphia, for example, it became economically 
sound for these dealers to go to areas where there was less 
enforcement, less capability, and not as many people. But if 
you hit a broad enough area, it was very successful.
    So in rural Delaware, if you have ever read Michener's book 
Chesapeake, you could understand my little State. Two-thirds of 
the State has been isolated from the commerce and intercourse 
of the States because it literally is that peninsula that comes 
down from the Delaware River on this side, if you look at a 
map, and the Chesapeake Bay on the other side, and it is called 
the Delmarva peninsula. Delaware, Maryland and Virginia are on 
that peninsula.
    It has become quite a haven for drug organizations because 
of so many migrant workers and because we are an agricultural 
State. You have motorcycle gangs and you have the Cripps and 
the Bloods, who long ago found the beauty of Utah.
    I remember the statistic a couple of years ago--I used to 
do this every single day; I don't anymore, but there were more 
drive-by shootings in Salt Lake City than there were in any 
other major city in America. I think that statistic is correct. 
I am prepared to be corrected if I am wrong, but it is 
astounding that the beautiful city of Salt Lake in the far West 
found itself in that position.
    So you are aware of all these things. In your capacity as 
the guy who is going to be out there doing the job that a 
former Delawarean did, I might add, what are you going to do? 
What are some of the ideas you have as to how to energize your 
office, with limited resources, unfortunately?
    I know none of you can comment on this. I am sure every one 
of you fully agrees with the President's budget. I don't. He 
has drastically cut law enforcement now in the name of homeland 
defense. He says he has made it up other places, but the bottom 
line is, Commissioner, you are going to have fewer cops.
    Mark my words. I predict to you within five years you are 
going to have 20 percent fewer--even with prosperity in Salt 
Lake, 20 percent fewer cops because the Biden crime bill is no 
longer going to be funded, the COPS program. You are going to 
have fewer resources available to you in local law enforcement. 
Berne grants are being eliminated or combined with other 
grants. So there is a net 40-percent reduction in help for 
local law enforcement.
    So what are you going to do, Scott? I mean, how are you 
going to respond to the concerns of these local officials, who 
I find in my State, maybe again because it is so small and I 
have been so deeply personally--by the way, not that I am a 
good guy. I don't mean that, but when you have one person from 
the Federal side of this who happens to have jurisdiction over 
these subjects willing to sit down with the local chiefs and 
the local sheriffs and the local commissioners and bring in the 
regional DEA guy, because he can't say no to you, and bring in 
the regional FBI guy or woman, it gets results. And the 
interesting thing is there is significant harmony. I mean, it 
really is working, like the commissioner found.
    So what do you do? That is a very broad question, but you 
have vast experience here. What are you going to be looking 
for? What are you going to be focusing on, given the range you 
need to do your job in your new capacity?
    Mr. Burns. Senator, if every governor and every mayor or 
even half of the council people or commissioners or sheriffs 
understood and appreciated the issues half as much as you do, I 
think we would be halfway home.
    Senator Biden. In fairness to them, they have got a lot of 
other things to focus on.
    Mr. Burns. I understand, but this, in my humble opinion, is 
something that we all need to make a priority and we all need 
to focus on. And I won't speak State Department-eze; we are 
getting our butts kicked.
    I understand that there will be diminishment in funds, in 
Berne grant monies and COPS monies, which we have all 
appreciated, but in my county we did it without any HIDTA 
money, and we did it because maybe it was self-defense. And we 
took it a step further and took the money that we forfeited 
from the dealers, and not a marijuana cigarette and we 
forfeited a Mercedes Benz. I am talking about 4 and 5 and 6 and 
800 pounds of marijuana and 500 kilos cocaine,and taking a 
house that was a distribution center.
    We put that money in a fund and we funded DARE, and we have 
one of the most comprehensive DARE programs in the country 
right there in little southern Utah. So I think people can do 
things without money and without the Federal Government 
standing by to tell us how we do it. But it takes initiative 
and it takes guts and it takes people wanting to understand the 
issues because it is a dirty world.
    You understand about heroin coming from Pennsylvania to 
your State. You understand about the methamphetamine problem on 
the West Coast. You understand about baby binkies and water in 
a remote area. Most Americans, Senator, with all due respect, 
have no idea what you are talking about, and I guess part of 
what my job will be is to go to those localities to talk to 
them about the issues.
    I will go to Delaware. I would be more than happy if you 
would allow me to work on that particular issue, if I am 
fortunate enough to be confirmed.
    Senator Biden. One of the things I have found, and I want 
to know what your experience in this is, having been a local 
official, is that it is not that localities lack capability. 
They tend to lack resources and they tend to lack expertise, 
and they tend to be almost not afraid in the sense of personal 
courage, but afraid in terms of thinking that maybe what they 
think they know is not as simple and clear as they have 
concluded it is; that there must be something more complicated.
    So they tend to be reluctant to put their arms around it 
for fear that they may be missing something. They remind me 
sort of the freshman who shows up in a philosophy class with a 
great idea. It may be original, but because he or she hasn't 
read it somewhere, they assume it mustn't be significant.
    So I have found on a much more limited basis as I have gone 
around the country, particularly selling this and the Violence 
Against Women Act, that when you actually provide a model for 
local officials, they are hungry to try to replicate it.
    And it doesn't have to be a single model. For example, we 
found in the case of violence against women that there are four 
places where women who are victimized lose their resolve to 
proceed against their attacker, whether it is their husband, 
significant other, or someone they work with.
    Strangely enough, one of those places is when they show 
up--and it varies from State to State--at, say, the family 
court in the State of Delaware to pursue their complaint. They 
walk up to an intake officer and the intake officer says, now, 
what was it; right in front of everybody, what was it? When did 
he hit you? Well, I don't see any bruises.
    That is the place the woman turns and walks away, or when 
she goes to court and the court is insensitive enough to put 
her and the abuser in the same room as they are waiting to go 
into the courtroom, or when you have cross-examination or 
direct examination by the prosecutor and he does not place his 
physical body between eye contact of the accused and the 
accuser, because that is when women believe that no one is 
going to be with them as that person who is 6'2", 210 pounds, 
is staring at her, and she is 5'4" and 112 pounds and she knows 
if he doesn't go to jail, he is coming back. They are very 
practical things.
    I implore you to not decide on a single package, but try 
very hard to--they are telling me I am supposed to slow this 
up, which I am not going to do because I pay little attention 
to my staff because they are brighter than I am.
    As I said, I have a deep interest in this. When we still 
have statistics out of Colombia showing that 80 percent--
remember this, 80 percent of every single solitary prisoner in 
America, State, county, local and Federal, either is an abuser 
of and/or addicted to alcohol or an illicit drug, and/or is 
arrested or is in there because they were trafficking in those 
substances--80 percent.
    With all the success we have had with violent crime in 
America under the crime bill and other factors, imagine ifyou 
could wave a wand and God could change very single American so that 
their brain could no longer respond to the stimuli of alcohol or drugs. 
Imagine what would happen in America. It would be a transforming 
experience.
    My deceased wife, God love her, used to say the greatest 
and worst gift God gave to mankind is free will. Well, we have 
to figure out how to help these rural communities, and I think, 
Scott, it is the single most glaring and urgent unmet need that 
we have in this area because the traffickers have found--you 
know, it is like punching a pillow. You know, we crack down in 
the urban centers. Even if we affect interdiction 
significantly, which I strongly support as an important aspect 
of this, it pops up where there is the least resistance.
    As you well know, one of the objectives we have all had in 
law enforcement is to at least raise the collateral cost of 
doing business in this business. So I hope you will not lose 
your practical sense. This is not rocket science. Medical cures 
are equivalent to rocket science because they are above my pay 
grade, but this is not, and I hope you will keep your 
enthusiasm and be willing to come up with some practical 
programmatic--not programmatic--let me conclude with this.
    I would hope that as you go around the country, you do more 
than--although it is important to do this--do more thanlisten. 
It is presumptuous to say that as a Federal official. It is important 
to listen, but we have been listening now for 20 years. We pretty well 
know what people are saying.
    What I find people hungry for is very, very basic things, 
very basic, bite-size, understandable, applicable ideas that 
they can use. So I hope you go with a little bit of a 
smorgasbord and say this is what worked in Lynnfield, 
Massachusetts, this is what worked in Moab, Utah, this is what 
works over here. I don't know what works best for you, but let 
me tell you how we do these things, very practical things. 
People are hungry for the help, hungry for it.
    You know, I used to have a friend and he was a great, great 
basketball player. He played on that NIT team at Providence--it 
shows you how old I am--in 1964 with Riordan and Walker and 
guys who went on to play in the pros and were all-pros. His 
name was Pete McLaughlin, and Pete would never argue that his 
greatest asset was his academic skills. He was a bright guy, 
but it was not the most important thing to him.
    But Pete had an expression that I wish every academically-
accomplished person understood fully. He used to say, Joe, you 
have got to know how to know, you have got to know how to know. 
A lot of local officials are incredibly talented, but they 
don't know how to know, and I hope you will go with a little 
bit of a menu for them to give them some advice.
    Mr. Burns. I will give it my best, Senator.
    Senator Biden. I have no doubt about that.
    I am sorry to keep you all so long, but as I said, I guess 
some would suggest it hasn't been all that successful, but I 
have spent 26 of the 28 years of my life working on this, and 
actually 32, counting as a local official, and there is nothing 
that is more important to me, including the Office of Juvenile 
Justice.
    Mr. Flores, I appreciate, and I mean this sincerely, your 
work in the past. I appreciate the fact that you have felt 
during the last administration that there was not enough time 
and attention placed to dealing with Internet porn and other 
things that caused you to resign.
    I don't think you will, but just to state it up front, I 
hope you approach your new job with a results-oriented notion 
rather than a value content idea; that you don't walk in with 
an ideological disposition as to how to handle all matters. I 
hope you have, and I believe you do, an open mind.
    You are about to take over an office that has been sort of 
a stepchild for a while, although we have significantly 
increased the budget over the years when I was chairman and 
when Senator Hatch was chairman. Senator Hatch and I have 
worked very hard to reauthorize the Juvenile Justice Act and 
update it and make it, we think, better, and we have been 
allies in that effort.
    It has been very difficult to get it done. We have passed 
it a couple of times. It got over to the House. Then the House 
has subsequently passed one that can't get by here. So we are 
kind of in a conundrum right now in terms of whether we 
initiate a new, improved authorization for your department or 
whether we try to just go along with what the law has been or 
we just limp along year to year in the authorization by funding 
through appropriations. I realize that is Washington jargon 
that maybe only you understand, having worked here.
    One of the questions I want to ask you to get a sense--I 
don't expect any academic treatise in response to this, 
although you are fully capable of it--to get a sense from my 
perspective, as they say, to use the vernacular, of where you 
are coming from on these issues.
    Juvenile crime has plummeted over the past decade. The 
irony is that it has plummeted. From 1991 to 2000, the number 
of persons under the age of 18 years old arrested for murder 
dropped 65 percent. I am the guy who wrote the reports in the 
1980s about the skyrocketing juvenile murder rate in the United 
States, juveniles committing murder. Even though I take some 
pride in having authored the major crime bills from 1988 on, I 
am surprised at the drop, as to how far it has dropped.
    Rape is down 26 percent, robbery 29 percent, and this all 
happened at a time when the juvenile justice experts and 
demographers told us we were likely to see a rise, because 
there was an 8-percent increase in the juvenile population 
between 1993 and 1999. As you know, that is when the hormones 
kick in. That is the age where you think you are invincible, 
that you will never be caught. So in a sense, the statistics 
belie the predictions and the increase in juvenile population.
    What do you think is most responsible for this, or how do 
you explain that phenomenon--a significant decrease, 
notwithstanding an increase in the juvenile populations? I used 
to go through this thing during the 1970s and 1980s talking 
about how the most violent criminals in our society--in the 
1960s--don't hold me to the exact numbers, but something like 
18 years, 6 months of age, on average. Then it dropped down to 
17-something, and it dropped down to 15 years and 6 months or 
something, the most violent of all criminals, not juvenile 
criminals, criminals.
    Now, that trend seems to have not--it has been reversed in 
spite of increases in juvenile population. To what do you 
attribute it?
    Mr. Flores. Senator, I think that there is probablynot any 
one thing that is responsible for any of these trends. I think that 
oftentimes the temptation is to reach out and grab a hold of one thing 
or to think that any particular program that is being supported or run 
is in large part responsible for any one particular aspect.
    Senator Biden. I agree with that.
    Mr. Flores. I have, in deference to the Senate process, not 
had an opportunity to immerse myself in much of the specific 
work of the Office of Juvenile Justice. But I have had a chance 
both during my time at the Justice Department in the Criminal 
Division, as well as during the past four years, to take a look 
at a number of societal issues that continue to affect, I 
think, the numbers.
    While I am very pleased about the change in direction in 
terms of the numbers of juveniles in the system or at risk of 
going into the system, I think about how horrible it has got to 
be as a parent to watch my child go into the system. And it 
would be very small solace indeed for someone to say, well, 
your son is part of that smaller percentage.
    Senator Biden. I have that. I don't need a lecture about 
that. I mean, I would not take a back seat to anyone in my 
empathy for those whose children get caught up in the system 
and get picked up by the system.
    The question is, as a policymaker, I am only able to go on 
a policy level deal with and initiate or participate in those 
programs that have the best chance of keeping the most children 
out of that system, out of that stream of crime and drugs.
    On the personal side, I, like you, suspect that I have 
counseled and met with and have empathized with and personally 
intervened on behalf of more families or as many families as 
any man or woman who does this on anything other than a full-
time job as a counselor. So I am not looking for your concern 
about those who are caught in the system. I am trying to get a 
sense of what you understand to be the reason why it has 
changed.
    My dad, God love him, is in the hospital. He is 86 years 
old and he has a lot of wisdom, and my dad says all the time, 
Joe, we always fail to learn our lessons from our victories; we 
learn the wrong lessons from our victories. Well, there have 
been some small victories here and unless we figure out why 
this occurred, we don't know what to do from here on. 
Otherwise, the past is not a guide to take us to the future.
    This may just be pure happenstance, and I am not being 
facetious. I mean, if you had an 8-percent decrease in the 
juvenile population over the last 10 years, I would say to you 
as someone who has immersed himself in this for three decades 
trying to learn as much as I can--without exaggeration, I have 
held more hearings on this subject with experts than any person 
who serves or has ever served in the United States Congress and 
I still don't fully understand it. I only come away with 
certain basic things I know for certain.
    One is there are four corners, three cops on three of the 
corners, not one on the other, and if a crime is going to be 
committed at an intersection, it is most likely to be committed 
where the cop is not.
    Second, when you get to be 35 years old, it is hard to jump 
chain link fences when you are being chased by cops. 
[Laughter.]
    I mean this literally, literally literally. There are only 
certain things we really know, and so what I am trying to get 
at is you are going to head up a department that is tasked to 
deal with the single most important intersection in the 
criminal justice system.
    We know and you know from your great experience that if a 
kid gets through his or her teen years without any interface 
with the law, on the wrong side of it, the prospects of that 
person being caught up in drugs or the criminal justice system 
down the road are infinitesimally smaller than a child who has 
even been picked up for truancy. We know that truancy is the 
single biggest sign as to whether or not there will be a 
criminal record that a child will have and the road map to 
delinquency.
    We know that cigarette use is the single best sign to know 
whether or not someone is more likely to be addicted to a 
controlled substance. A kid who has never smoked a cigarette--
what is the number--is one-fifth or one-tenth as likely to ever 
use a controlled substance as someone who has smoked a 
cigarette.
    So there are certain basic things we know, and I don't have 
the answer, but I would like to know what your answer is. If 
you would like to think about it before we bring your 
confirmation up for a vote, I am happy to wait, but I would 
just like you to muse with me about why do you think these 
numbers are down. Are the statistics being kept differently?
    When we did the violence against women stuff, we found, to 
be totally honest about it, that the rate against violence 
against women. I had done a study, and actually I used the 
Bureau of Justice Statistics. From 1978 or thereabouts, to 
1988, or 1976 to 1986, violent crime against women in America 
went up over 100 percent, those between the ages of 18 and 30. 
But violent crime in the same time went down for men in that 
age.
    I thought I knew all there was to know about violence. I 
thought violence was the ultimate equal opportunity employer, 
but it turned out not to be so we started focusingon why. One 
of the reasons it went up against women is women had more support from 
other women and they began to report crimes more than they did before. 
Is there less reporting?
    I mean, what does your gut tell you, based on your 
background, as to why these numbers went down?
    Mr. Flores. Senator, my gut and my observation tells me 
that I think these numbers go down because I think we have 
spent more and done a better job at early intervention. I think 
that we have now, and OJJDP currently operates a number of 
programs which focus on early intervention, the personal 
investment of adult lives into children's lives, so that things 
like mentoring, things like the proper joinder between 
educational efforts along the lines with teaching proper 
behavior--the Boys and Girls Clubs, in fact--I was on their Web 
site just recently and I noticed that they are pushing that 
kind of a model where they are trying to figure out how do we 
take those new educational responsibilities and standards and 
how do we use our after-school programs, how do we use the 
resources we have.
    You raised earlier today an issue of limited funds and 
budget issues, but I would like to, I guess, echo the comments 
that were made that there is no substitute, I think, for the 
investment of adult lives into the lives of children.
    I mean, I have heard it said, you know, very few husbands 
could ever afford to pay their wives what they are worth if 
they had to actually contract out for the work because they do 
so much that is not reflected----
    Senator Biden. If you contracted it out, she would leave 
you. I mean, she could get much better pay. [Laughter.]
    Mr. Flores. Because of the fact that one volunteer can 
provide resources, help, support for a child, as people 
provided for me during my lifetime, I think that makes a 
difference. I think that we have really focused for----
    Senator Biden. But doesn't that run counter to everything 
that the statistics show? The statistics show during this same 
10-year period that fewer parents were married, fewer nuclear 
families, fewer parents taking the responsibility you are 
talking about, fewer parents engaged in the process, fewer 
parents prepared to show up.
    My wife is a professional educator. Fewer parents showed up 
during this decade at parent-teacher meetings than before. 
Fewer parents are engaged in these programs, and yet this has 
gone down. That is why I think it is very important, and Dr. 
Crane in a different area and Ms. Solberg talk about data-based 
conclusions; in other words, making sure that we really know 
what we are talking about rather than just following our 
instincts.
    You know, when I stand up and talk about American foreign 
policy to my constituency and I start talking about what is 
going on in terms of negotiations with the Chinese regarding 
strategic doctrine, everyone sort of stands back in my 
constituency and says, well, you know, Joe is an expert in this 
and I will listen to what he has to say.
    I have done more work on the criminal justice side of the 
equation. When I speak, everyone assumes, which they have an 
absolute right to, that everybody is an expert on law 
enforcement. Everybody knows why we have crime. No one thinks 
that there is any database. If we just eradicated poverty, we 
would have no crime, on the one end, and those that say if we 
just occasionally took the belt off the loops on our pants and 
smacked our children, we would have no crime.
    Yet, everybody seems to be fully prepared to be an expert 
on law enforcement. Yet, we have increasing data to determine 
that some of our old saws just don't hold water; they just 
don't make sense, they just don't add up.
    I hope as you go into this you will focus more on the data, 
not you personally, but less on what, coming from the left and 
the right, are these sure ideological notions of what solves 
the problem. I find I have little respect for the left or the 
right because they don't think very much. There is a great deal 
of certitude. They know for certain that they are right because 
the Lord told them or they just know in their heart.
    For example, you point out Boys and Girls Clubs. When I 
wrote the crime bill, I am the guy that wrote into the law that 
Boys and Girls Clubs be funded, because I couldn't get my more 
conservative Democrat and Republican friends to think 
prevention worked.
    I found a study that was a very serious study done taking 
the same demographic breakdown of public housing projects in 
three Midwestern cities. I believe it was Chicago, St. Louis, 
and I forget where else, to tell you the truth now. It showed, 
where there was a Boys and Girls Club in the basement of a 
public housing project, there was, on average, 28 percent fewer 
crimes, 28 percent less use of drugs. I mean, it averaged out 
to 28 percent.
    So I am not a rocket scientist, but it seemed to me this 
might be a good idea. What we did is we went in and we found, 
with the help of the police organizations that helped me write 
that bill--when I asked cops what they wanted, I said do you 
want more cops or do you want a couple more Boys and Girls 
Clubs in your neighborhoods? They said give me the Boys and 
Girls Clubs.
    Well, my right-wing friends thought that was--``Moses'' 
Heston thought that was a little bit of this just social 
engineering. But guess what? It works, it works. Thereason 
there are more Boys and Girls Clubs is we put $20 million a year in. 
They have increased by two-thirds, the number of them.
    I called a guy named Case and I said, you know, kids don't 
know how to use computers; there is a great digital divide. So 
he contributed through his organization 57,000 brand new 
computers so that every Boys and Girls Club in America would be 
guaranteed to be hooked to the Internet and have available to 
them a minimum of ten of these computers in every Boys and 
Girls Club. Then I got a call from Microsoft saying why didn't 
you ask us? So I asked the head of a little company called 
Microsoft and he committed $100 million to the Boys and Girls 
Clubs to provide all the software and the teachers.
    Now, in the face of all this, the President eliminated 
funding for Boys and Girls Clubs. I don't quite get it. I don't 
get it. Is there something not working? What am I missing?
    So without putting you more on the spot, since you are not 
in office yet, but I am going to put you on the spot a lot 
because you are a bright guy and you will give me honest 
answers, I just ask you as a favor to honestly look at what you 
thinks works and what doesn't work, what works and what doesn't 
work.
    I don't know the answers. I don't know what works and what 
doesn't work, and I am not sure crime is down because of the 
investment we made in the juvenile justice programs. But I do 
know that your notion about hands-on parents--fewer parents are 
hands-on today than they were in 1990, and yet crime is down. 
But what does that mean?
    Well, I think it means that we have fundamentally increased 
across the board--local, State and national--focus on 
mentoring, fundamentally increased our commitment to things 
like Boys and Girls Clubs, which is not a real substitute for 
parents, but when you don't have nuclear families, then it 
seems to be of some help. Those silly little programs like 
keeping gymnasiums open until midnight in tough parts of town 
reduces crime.
    So I hope you will look at that stuff because I believe you 
are about to assume the single most important job in the 
system, the single most important job in the system. Not that 
you are responsible for the answers of bringing crime down, but 
if we can get a handle on this stream, if we can keep out kids 
out of the crime and drug stream, our chances of being safe and 
my 85-year-old mother who was mugged in a parking lot not being 
mugged again in the parking lot, in broad daylight at the 
supermaket--by the way, when they caught the guy and the woman, 
my mother said they needed the money, honey, don't do it. God 
love her. They needed the money.
    At any rate, the fact of the matter is I just hope we will 
try to figure out what really works and what really doesn't 
work, because something happened, something happened. For my 
Republican friends, in spite of Clinton something happened, in 
spite of him, maybe. But whatever the reason, something good 
happened. How do we keep it going, unless it really didn't 
happen, and it may not have because maybe we are doing the 
statistics a different way.
    So that is my only plea with you, if you will as open-
minded as you can, because you are at the place where there is 
an intersection of all these things. I know you know that. I 
sound like I am lecturing. I am not. I don't mean to come 
across that way, but I really think the job you are about to 
take is so, so important and it needs an advocate.
    Just as you were an advocate in the Justice Department, and 
that is what I admire about you, be the same advocate. If you 
become convinced that something that is within your 
jurisdiction is working and people don't want to keep it, be an 
advocate. You have been in the past. I admire you for it.
    In the interest of making sure that your wife is still 
willing to let you take this job, since she is with your three 
beautiful children in that room--I say to all the children in 
the room if they can hear it--and you are no child, honey, but 
an old lady like you, this is the time to demand something very 
important that you want. Now is the time, as dad walks out, to 
say, dad, how about the following? If you need any advice on 
how to leverage this, come on up and I am happy to talk with 
you about this, okay?
    I think, Mary Ann, that your daughter has already leveraged 
you, so I don't think it matters for you.
    Does anyone want to make a closing comment? I have kept you 
too long, but again I apologize for my enthusiasm about this. I 
don't have the answers. I have been doing this a long time and 
I don't have all the answers, but some things seem clearer to 
me than others. I hope whatever you think is the path to deal 
with what is the most important job, I think, in Government--
you all are about to assume those jobs. Drugs and juvenile 
justice are the gateways to a significant part of the problem 
America faces as it relates to productivity and as it relates 
to basic value system and our public safety.
    So I thank you all very much for indulging me, and I wish 
you all luck in your new jobs and I look forward to working 
with you.
    We are adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]
    [Questions and answers and submissions for the record 
follow:]

[GRAPHIC] [TIFF OMITTED] T5793A.073

[GRAPHIC] [TIFF OMITTED] T5793A.074

[GRAPHIC] [TIFF OMITTED] T5793A.075

[GRAPHIC] [TIFF OMITTED] T5793A.076

[GRAPHIC] [TIFF OMITTED] T5793A.077

[GRAPHIC] [TIFF OMITTED] T5793A.078

[GRAPHIC] [TIFF OMITTED] T5793A.079

[GRAPHIC] [TIFF OMITTED] T5793A.080

[GRAPHIC] [TIFF OMITTED] T5793A.081

[GRAPHIC] [TIFF OMITTED] T5793A.082

[GRAPHIC] [TIFF OMITTED] T5793A.083

[GRAPHIC] [TIFF OMITTED] T5793A.084

[GRAPHIC] [TIFF OMITTED] T5793A.085

[GRAPHIC] [TIFF OMITTED] T5793A.086

[GRAPHIC] [TIFF OMITTED] T5793A.087

[GRAPHIC] [TIFF OMITTED] T5793A.088

[GRAPHIC] [TIFF OMITTED] T5793A.089

[GRAPHIC] [TIFF OMITTED] T5793A.090

[GRAPHIC] [TIFF OMITTED] T5793A.091

[GRAPHIC] [TIFF OMITTED] T5793A.092

[GRAPHIC] [TIFF OMITTED] T5793A.093

[GRAPHIC] [TIFF OMITTED] T5793A.094

[GRAPHIC] [TIFF OMITTED] T5793A.095

[GRAPHIC] [TIFF OMITTED] T5793A.096

[GRAPHIC] [TIFF OMITTED] T5793A.097

[GRAPHIC] [TIFF OMITTED] T5793A.098

[GRAPHIC] [TIFF OMITTED] T5793A.099

[GRAPHIC] [TIFF OMITTED] T5793A.100

[GRAPHIC] [TIFF OMITTED] T5793A.101

[GRAPHIC] [TIFF OMITTED] T5793A.102

[GRAPHIC] [TIFF OMITTED] T5793A.103

[GRAPHIC] [TIFF OMITTED] T5793A.104

[GRAPHIC] [TIFF OMITTED] T5793A.105

[GRAPHIC] [TIFF OMITTED] T5793A.106

[GRAPHIC] [TIFF OMITTED] T5793A.107

[GRAPHIC] [TIFF OMITTED] T5793A.108

[GRAPHIC] [TIFF OMITTED] T5793A.109

[GRAPHIC] [TIFF OMITTED] T5793A.110

[GRAPHIC] [TIFF OMITTED] T5793A.111

[GRAPHIC] [TIFF OMITTED] T5793A.112

[GRAPHIC] [TIFF OMITTED] T5793A.113

[GRAPHIC] [TIFF OMITTED] T5793A.114

[GRAPHIC] [TIFF OMITTED] T5793A.115

[GRAPHIC] [TIFF OMITTED] T5793A.116

[GRAPHIC] [TIFF OMITTED] T5793A.117

[GRAPHIC] [TIFF OMITTED] T5793A.118

[GRAPHIC] [TIFF OMITTED] T5793A.119

[GRAPHIC] [TIFF OMITTED] T5793A.120

[GRAPHIC] [TIFF OMITTED] T5793A.121

[GRAPHIC] [TIFF OMITTED] T5793A.122

[GRAPHIC] [TIFF OMITTED] T5793A.123

[GRAPHIC] [TIFF OMITTED] T5793A.124

[GRAPHIC] [TIFF OMITTED] T5793A.125

[GRAPHIC] [TIFF OMITTED] T5793A.126

[GRAPHIC] [TIFF OMITTED] T5793A.127

[GRAPHIC] [TIFF OMITTED] T5793A.128

[GRAPHIC] [TIFF OMITTED] T5793A.129

[GRAPHIC] [TIFF OMITTED] T5793A.130

[GRAPHIC] [TIFF OMITTED] T5793A.131

[GRAPHIC] [TIFF OMITTED] T5793A.132

[GRAPHIC] [TIFF OMITTED] T5793A.133

[GRAPHIC] [TIFF OMITTED] T5793A.134

[GRAPHIC] [TIFF OMITTED] T5793A.135


</pre></body></html>
